\

V

LIST OF APPENDICES
APPENDIX A:

Order of the United States Court of Appeals for the Ninth Circuit
Denying Request for Extension of Time to Petition for Rehearing
to Address the Court’s Error in Misstating the Record,
dated December 30, 2020:

APPENDIX B:

Published Decision of the Ninth Circuit Denying Transferred
Rule 60(d)(1) Independent Action invoking McCoy as an
Unauthorized Application to file Successive Habeas Petition,
dated December 14, 2020:

APPENDIX C:

Transfer Order of the United States District Court for the
District of Hawaii, dated January 4, 2019:

APPENDIX D:

Order of the United States District Court for the District of
Hawaii, Granting in Part and Denying in Part Habeas Relief,
dated September 30, 2008:

Li

APPENDIX A

Case: 19-70036. 12/30/2020, ID: 11948900, DktEntry: 49, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

DEC 30 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

TARYN CHRISTIAN,
Applicant,

No.

19-70036

District of Hawaii,
Honolulu

v.
ORDER
TODD THOMAS,
Respondent.
Before: WALLACE, BEA, and BENNETT, Circuit Judges.
Petitioner’s Motion to Extend Time to File Petition for Rehearing is
DENIED. 28 U.S.C. § 2244(b)(3)(E) bars a denial of authorization to file a second
or successive application from being the subject of a petition for rehearing.
No petitions for rehearing or petitions for rehearing en banc shall be filed or
entertained.

1

APPENDIX B

Case: 19-70036 '7/14/2020, ID: 11925534, DktEntry: 46, Page 1 of 21

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Taryn Christian,

No. 19-70036
Applicant,

v.

OPINION

Todd Thomas,
Respondent.
Application to File Second or Successive
Petition Under 28 U.S.C. § 2254
Argued and Submitted October 19, 2020
Honolulu, Hawaii
Filed December 14, 2020
Before: J. Clifford Wallace, Carlos T. Bea, and
Mark J. Bennett, Circuit Judges.
Opinion by Judge Bea

Case: 19-70036, >n/14/2020, ID: 11925534, DktEntry: 46, Page 2 of 21

2

Christian v. Thomas
SUMMARY*

Habeas Corpus
The panel denied Taryn Christian’s application for
federal habeas corpus relief from his 1997 conviction in
Hawaii state court for second-degree murder in a case in
which Christian seeks retroactive relief based on McCoy v.
Louisiana, 138 S. Ct. 1500 (2018), which held that a
defendant’s Sixth Amendment rights are violated if, counter
to the defendant’s express objections, the defendant’s
counsel concedes guilt.
Christian filed in the district court a motion pursuant to
Fed. R. Civ. P. 60(d) seeking relief from his first habeas
judgment. The district court construed the motion as an
application to file a second or successive (SOS) habeas
petition and referred it to the Ninth Circuit.
The panel accepted the referral and confirmed that the
Rule 60(d) filing, which asserted a federal basis for relief
from Christian’s state conviction, is properly construed as an
application for authorization to file an SOS habeas petition.
The panel held that the application does not make the
prima facie showing required in 28 U.S.C. § 2244(b)(2) for
authorization to file an SOS petition. The panel assumed
without deciding that McCoy created a new rule of
constitutional law and that it was previously unavailable to
Christian, but found that the application was otherwise

* This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

Case: 19-70036. J°/14/2020, ID: 11925534, DktEntry: 46, Page 3 of 21

Christian v. Thomas

3

deficient. The panel held that the Supreme Court has not
made McCoy retroactive on collateral review. The panel
also held that because counsel does not violate a defendant’s
Sixth Amendment rights under McCoy simply by arguing
self-defense in the alternative, Christian does not show that
his proposed petition would rely on McCoy’’s rule.

COUNSEL
Gary Modafferi (argued), Law Office of Gary A. Modafferi
LLC, Las Vegas, Nevada, for Applicant.
Richard B. Rost (argued), Deputy Prosecuting Attorney;
Donald S. Guzman, Prosecuting Attorney; Department of
the Prosecuting Attorney, Wailuku, Maui, Hawaii; for
Respondent.

OPINION
BEA, Circuit Judge:
Taryn Christian applies for federal habeas corpus relief
from his 1997 conviction in Hawaii state court for seconddegree murder. Having already been denied federal habeas
relief once, he now seeks retroactive relief based on the
Supreme Court’s 2018 decision in McCoy v. Louisiana,
138 S. Ct. 1500. The Supreme Court held in McCoy that a
defendant’s Sixth Amendment right to determine the
objective of his defense is violated if counsel, counter to the
defendant’s express instructions to maintain innocence,
instead concedes guilt. Christian now argues his trial
counsel effectively conceded his guilt by urging that the jury

Case: 19-70036

4

'714/2020, ID: 11925534, DktEntry: 46, Page 4 of 21

Christian v. Thomas

consider self-defense as an alternative theory for acquittal
against Christian’s wishes.
In this proceeding, he initially filed a motion in the
district court pursuant to Federal Rule of Civil Procedure 60
seeking relief from his first habeas judgment. The district
court construed the filing as an application to file a second
or successive petition for writ of habeas corpus (“SOS
petition application”) and referred it to the Ninth Circuit.
We review whether Christian’s filing is indeed an SOS
petition application and, if so, whether, pursuant to the
Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”), he is entitled to file a second or successive
habeas petition at the district court based on McCoy.
I
A
In 1997, a jury in Hawaii state court found Christian
guilty of second-degree murder of Vilmar Cabaccang.1 The
night of the murder, Cabaccang awoke to find an intruder
inside his car parked outside his home. After confronting
and chasing the fleeing intruder, Cabaccang caught and
fought the knife-wielding stranger. Cabaccang’s thengirlfriend aided in fending off the intruder, but Cabaccang
had already been stabbed by that time. He would later die

1 Christian was also convicted of attempted third-degree murder,
attempted third-degree theft, and use of a deadly or dangerous weapon
in the commission of a crime.

Case: 19-70036 '7/14/2020, ID: 11925534, DktEntry:.*6, Page 5 of 21

Christian v. Thomas

5

from the wound. The state identified Christian and
prosecuted him for Cabaccang’s murder.2
At trial, Christian maintained his innocence throughout,
insisting that his counsel argue that a third man was the true
perpetrator. Christian attached a letter from his trial counsel
to the instant petition, which memorialized their pretrial
strategy discussion. His trial counsel, Anthony Ranken,
stated in the letter that he recommended Christian “not
contest identification and instead [go] with a self defense
theory.” Dkt. 2 at 69. Rankin’s letter states Christian
rejected his recommendation, and that Christian “decided
that [he] still do[es] wish to contest identification.” Id.
Ranken also specified in the letter: “I cannot admit
identification without your consent” and that “[w]e will
contest all aspects of the prosecution’s case for which we
have any contrary evidence at all.” Id. at 69-70. The letter
does not state that Christian told Ranken not to argue selfdefense. Rather, Ranken wrote that he believed he “must not
entirely foreclose the option of arguing a self-defense
theory” and suggested he may so argue after reviewing the
evidence presented at trial. Id. Christian did not sign the
letter.
At trial, Ranken did contest identification per his and
Christian’s strategy discussion by presenting evidence and
2 The state based its case against Christian on the following
evidence: Christian’s ex-girlfriend’s statement that he had confessed the
crime to her; a call between those two featuring incriminating statements
from Christian; Christian’s hat that was found at the scene of the crime,
alongside gloves matching the type used by Christian’s employer;
Christian’s history of theft of car radios and Christian’s identification of
Cabaccang’s car in his notebook as a target; and two photo
identifications of Christian by Cabaccang’s ex-girlfriend and another
witness at the scene.

Case: 19-70036 "V14/2020, ID: 11925534, DktEntry: 46, Page 6 of 21

6

Christian v. Thomas

examining witnesses. During Ranken’s closing arguments,
after summarizing the defense’s primary theory of the case,
Ranken first presented to the jury his own theory of selfdefense. Ranken argued that if Christian was the one who
stabbed Cabaccang, then the evidence suggests he did so in
self-defense and that Christian lacked the mental state
required for a second-degree murder conviction. Ranken
prefaced his statements regarding self-defense by stating:
I’m going to assume now for the sake of
argument that [Christian] was the one who
inflicted these wounds despite everything I
said because I have to go on and help you
analyze the other portions of the case, the
other possible defenses just in case you do get
beyond that question that you don’t find a
reasonable doubt as to who did it and want to
move on to the next step.
Trial Tr., Dkt. 2 at 97. Later, when Ranken discussed how
Cabaccang was stabbed, he stated: “The way [Cabaccang]
got stabbed is obviously [Christian] from that position, if
[Christian] was the one who did it . . . .” Id. at 111.
Moments later, he repeated again: “If [Christian] was ever
facing [Cabaccang] - if [Christian] was ever facing
[Cabaccang] .. . .” Id. at 112. Ranken then moved on from
self-defense to argue Christian lacked the requisite state-ofmind, prefacing this argument by stating: “Again if this was
[Christian] who did it, what was his state of mind at the
time?” Id. at 121.
Ultimately, Christian was convicted of the charges
against him, including second-degree murder, for which he
is serving a life sentence. Christian unsuccessfully appealed
his conviction to the Hawaii Supreme Court.

Case: 19-70036, "'/14/2020, ID: 11925534, DktEntry: ^6, Page 7 of 21

Christian v. Thomas

7

B
In 2004, Christian filed his first petition for writ of
habeas corpus pursuant to 28 U.S.C. § 2254, arguing, inter
alia, ineffective assistance of counsel. Christian questioned
multiple decisions made by Ranken during closing
arguments, including Ranken’s decision to argue selfdefense in the alternative against his wishes. The magistrate
judge recommended denying this basis for relief, finding
Ranken’s decision to argue self-defense in the alternative
was an objectively reasonable strategy under the
circumstances.
The district court judge adopted the
magistrate judge’s findings and recommendation. The
district court granted Christian’s first habeas petition on
other grounds; however we reversed on appeal and denied
the petition in its entirety without remand. Christian v.
Frank, 595 F.3d 1076, 1078 (9th Cir. 2010).
In the meantime, Christian has repeatedly sought posthabeas relief. In 2011, Christian attempted to reopen his
federal habeas proceeding by filing a Federal Rule of Civil
Procedure 60(b) motion in the district court, alleging newly
discovered evidence of fraud on the courts. The district
court construed the motion as an SOS petition application
and referred it to the Ninth Circuit, which denied the
application. Christian filed another Rule 60(b) motion in
2013, again alleging newly discovered evidence of fraud.
The district court this time did not construe the motion as an
SOS petition application. Instead, the district court held an
evidentiary hearing, but ultimately entered an order denying
the motion in 2015. In 2016, Christian filed a motion to
reconsider the 2015 order, which was denied. Christian filed
a second motion for reconsideration, which the district court
denied stating it would refuse to consider any more motions.
Christian then filed a third motion to reconsider, a petition

Case: 19-70036, ~»/14/2020, ID: 11925534, DktEntry: 46, Page 8 of 21

8

Christian v. Thomas

for writ of mandamus in the Ninth Circuit, a third Rule 60
motion, a second petition for writ of mandamus, and
multiple requests for certificates of appealability at the Ninth
Circuit; all were denied.
On October 19, 2018, Christian filed the instant action,
styled “Petitioner’s Independent Action for Equitable Relief
from Judgment Under Federal Rule 60(d)(1) Pursuant to
Intervening Supreme Court Precedent in McCoy v.
Louisianna, [sic] (2018).” The district court determined
Christian’s fourth Rule 60 filing was instead a disguised
SOS petition application. The court found that the petition
presented “a federal basis for relief from his underlying
conviction,” and was thus “a successive habeas petition,”
and referred it to the Ninth Circuit.3
II
We have jurisdiction over applications for authorization
to file second or successive habeas corpus petitions pursuant
to 28 U.S.C. § 2244. Our role in determining whether to
authorize a second or successive habeas petition under
AEDPA is limited. We assess only whether a petitioner has
made a prima facie showing of a qualifying claim. 28 U.S.C.
§ 2244(b)(2), (b)(3)(C); Henry v. Spearman, 899 F.3d 703,

3 In January 2019, before this court, Christian filed a motion to hold
in abeyance the proceedings before the panel pending appeal of a
separate district court order denying Christian’s motion for entry of
findings of fact and conclusions of law pursuant to Federal Rule of Civil
Procedure 52(b). Dkt. 3. The Ninth Circuit has since denied Christian a
certificate of appealability of that order (although Christian currently
seeks certiorari review in the Supreme Court). Christian v. Frank, No.
19-15179 (9th Cir. Nov. 8, 2019). We DENY Christian’s motion. Also
pending are two motions for judicial notice, which we also DENY as
moot. Dkts. 7, 24.

Case: 19-70036, - 'VI 4/2020, ID: 11925534, DktEntry: 46, Page 9 of 21

Christian v. Thomas

9

705 (9th Cir. 2018). Prima facie means “simply a sufficient
showing of possible merit to warrant a fuller exploration by
the district court.” Cooper v. Woodford, 358 F.3d 1117,
1119 (9th Cir. 2004) (en banc) (citations omitted).
Ill
“AEDPA imposes significant limitations on the power of
federal courts to award relief to prisoners who file second or
successive habeas petitions.” Ezell v. United States,
778 F.3d 762, 765 (9th Cir. 2015) (citations omitted). Prior
to filing an SOS petition with the district court, the petitioner
must first obtain authorization to do so from the court of
appeals. 28 U.S.C. § 2244(b)(3). In this gatekeeper role, we
must deny authorization to any second or successive petition
for habeas corpus unless it meets AEDPA’s strict
requirements. 28 U.S.C. § 2244(b)(l)-(3).
A
The threshold issue is whether Christian’s referred SOS
petition application is properly before us. Christian filed this
action with the district court as an independent action for
equitable relief from its prior habeas judgment pursuant to
Federal Rule of Civil Procedure 60(d). Rule 60 provides
procedures for a traditional motion for relief from a
judgment or order. Yet Rule 60(d) makes clear that it “does
not limit a court’s power to ... entertain an independent
action to relieve a party from a judgment, order, or
proceeding” or “set aside a judgment for fraud on the court.”
The district court construed Christian’s filing as an

Case: 19-70036

10

4 n

/14/2020, ID: 11925534, DktEntry: 46, Page 10 of 21

Christian v. Thomas

unauthorized SOS petition application and referred it to us
for review pursuant to Circuit Rule 22-3(a).4
A person may not disguise a second or successive habeas
petition by styling it as a Rule 60 motion to avoid AEDPA’s
filing restrictions. “A habeas petitioner’s filing that seeks
vindication of [a federal basis for relief from a state court’s
judgment of conviction] is, if not in substance a habeas
corpus application, at least similar enough that failing to
subject it to the same requirements would be inconsistent
with [AEDPA].” Gonzalez v. Crosby, 545 U.S. 524, 531
(2005) (quotation marks and citation omitted).
Determining whether a Rule 60 filing is instead an
application for habeas relief depends on whether it “contains
one or more ‘claims.’” Id. at 530. “[A] ‘claim’ as used in
§ 2244(b) is an asserted federal basis for relief from a state
court’s judgment of conviction.” Id. “In most cases,
determining whether a Rule 60(b) motion advances one or
more ‘claims’ will be relatively simple. A motion that seeks
to add a new ground for relief will of course qualify.”5 Id.

4 Circuit Rule 22-3(a) states: “If an application for authorization to
file a second or successive section 2254 petition or section 2255 motion
is mistakenly submitted to the district court, the district court shall refer
it to the court of appeals.”
5 We analyze whether a filing advances an unauthorized claim under
AEDPA using this same standard regardless of whether the original
filing is a Rule 60(b) motion or, as here, a Rule 60(d) independent action.
See Kostich v. McCollum, No. 16-5007,647 F. App’x 887,890 (10th Cir.
May 20, 2016) (unpublished) (“Motions brought under Rule 60(d) .. .
are subject to the same analysis as other motions to determine if they
bring unauthorized second or successive habeas claims.”); Gonzalez v.
Sec y for Dep ’t of Corr., 366 F.3d 1253, 1277 n.l 1 (11th Cir. 2004) (en
banc) (“[A] petitioner [may not] circumvent the restrictions on second or

Case: 19-70036,

a

o

'14/2020, ID: 11925534, DktEntry: 46, Page 11 of 21

Christian v. Thomas

11

at 532 (citations omitted). “When a movant asserts one of
those grounds (or asserts that a previous ruling regarding one
of those grounds was in error) he is making a habeas corpus
claim.” Id. at 532 n.4. In contrast, for example, “a bona fide
Rule 60(b) motion attacks, not the substance of the federal
court’s resolution of a claim on the merits, but some defect
in the integrity of the federal habeas proceedings.” Hall v.
Haws, 861 F.3d 977, 985 (9th Cir. 2017) (quoting Crosby,
545 U.S. at 532).
Here, Christian does not urge a defect in the integrity of
his earlier federal habeas proceeding. Rather, he presents a
new claim for relief based on an intervening Supreme Court
case, McCoy. Thus, his filing was properly construed by the
district court as an SOS petition application. Christian
claims the district court’s denial of his Sixth Amendment
claim in his original habeas petition was due to the court’s
“clear[] misunderstanding]” of the “Constitutional
significance” of the protected right discussed in McCoy.
Pet’r’s Br., Dkt. 2 at 29. He argues that “[i]n denying
Petitioner’s Sixth Amendment claim, the District Court
applied a very narrow reading of Strickland to justify
Ranken’s complete reversal of Petitioner’s defense in his
closing summation.” Id. at 32. In essence, Christian
complains that the district court’s interpretation of the
substantive law governing his ineffective assistance of
counsel claim was wrong in light of McCoy. In so doing,
Christian asserts the district court’s ruling on the merits of
his original habeas petition was in error. Thus, under
Gonzalez v. Crosby, Christian makes a claim covered under

successive petitions by the simple expedient of filing an independent
action aimed at the judgment denying habeas relief.”).

Case: 19-70036

12

A r-\

'14/2020, ID: 11925534, DktEntry: 46, Page 12 of 21

Christian v. Thomas

Section 2254. We therefore construe the Rule 60(d) action
as a habeas petition subject to the restrictions of AEDPA.
So construed, Christian’s petition before the panel is
challenging the same judgment (his conviction for seconddegree murder) as his original habeas petition, but on a new
basis. A petition that challenges the same judgment as a
prior habeas petition is considered second or successive. See
28 U.S.C. § 2244; Gonzalez v. Sherman, 873 F.3d 763, 767
(9th Cir. 2017). Christian concedes he had previously filed
a habeas petition challenging the same conviction he
challenges here and that it was denied. Pet’r’s Br., Dkt. 2
at 19-20. Therefore, the habeas petition before the panel is
second or successive under Section 2244.6
We accept the district court’s referral of Christian’s Rule
60(d) action and confirm that the filing is properly construed
as an application for authorization to file a second or
successive petition for writ of habeas corpus. We move now
to the merits of the application.
B
We may authorize the filing of an SOS petition only if
the petitioner makes a prima facie showing that satisfies the
requirements of either 28 U.S.C. § 2244(b)(2)(A) or
6 Christian argues that his filing falls under an exception to the
second or successive rule outlined in Stewart v. Martinez-Villareal,
523 U.S. 637 (1998). Stewart held that a petitioner may bring a second
habeas action without falling under the requirements of Section 2244 if
the claim forwarded by the second petition was also originally brought
in the first petition, but was dismissed at that time for being unripe. Id.
at 643-44. This exception does not apply here. Christian does not
forward a newly ripened claim denied at his original habeas proceeding,
but seeks relief based on a new rule of constitutional law recognized by
the Supreme Court in McCoy.

Case: 19-70036

A O

'14/2020, ID: 11925534, DktEntry: 46, Page 13 of 21

Christian v. Thomas

13

(b)(2)(B). 28 U.S.C. § 2244(b)(3)(C). As is relevant here,
Christian must make a prima facie showing that his proposed
petition “[1] relies on [2] a new rule of constitutional law,
[3] made retroactive to cases on collateral review by the
Supreme Court, [4] that was previously unavailable.”
Spearman, 899 F.3d at 705 (quoting 28 U.S.C.
§ 2244(b)(2)(A)).
Christian argues that the rule announced by the Supreme
Court in McCoy v. Louisiana is one such new rule and his
rights under McCoy were violated at trial such that he should
be afforded retroactive habeas relief. We review Christian’s
application to determine whether he has met these four
AEDPA requirements. For purposes of this analysis, we
assume without deciding that McCoy did indeed create a new
rule of constitutional law and that it was previously
unavailable to Christian.7 However, we find Christian’s
application otherwise deficient.
1
In 2018, the Supreme Court decided McCoy v.
Louisiana, holding that a defendant’s Sixth Amendment
rights are violated if, counter to express objections, the
defendant’s counsel concedes guilt. 138 S. Ct. at 1512.
McCoy was charged with triple homicide in the first
degree. Id. at 1506-07. The state sought the death penalty
based on “strong,” even “overwhelming,” evidence against

7 We will observe, however, that we have previously held that a
counsel’s concession of guilt could be grounds for a claim of ineffective
assistance of counsel, and that this argument, at least, was available to
Christian during his first habeas proceedings. See United States v.
Swanson, 943 F.2d 1070, 1074 (9th Cir. 1991).

Case: 19-70036, '’°/14/2020, ID: 11925534, DktEntry: 46, Page 14 of 21

14

Christian v. Thomas

McCoy. Id. at 1506, 1512. Despite the evidence arrayed
against him, McCoy insisted on his innocence. Id. at 1506.
McCoy’s counsel, skeptical of his client’s alibi and
believing the evidence in favor of conviction to be
insurmountable, determined that the best strategy for McCoy
was to concede guilt at the trial stage in hopes of building
credibility with the jury to avoid the death penalty at the
sentencing stage. Mat 1510. Yet McCoy was “intransigent
and unambiguous” in expressly objecting to his counsel’s
proposed strategy. Id. at 1507. McCoy “vociferously
insisted” he was innocent and “adamantly objected to any
admission of guilt.” Id. at 1505.
McCoy’s counsel ignored his client’s instructions. At
trial, he was unambiguous in conceding guilt before the jury,
stating “my client committed three murders” and that he
“took [the] burden off of [the prosecutor].” Id. at 1507
(alterations in original). McCoy’s counsel did not couch,
equivocate, or preface these statements with assurances that
he was arguing only in the alternative. In so doing, his
express objective was not to obtain acquittal, but to lessen
the severity of the penalty. Id. at 1510 (observing that
McCoy’s counsel’s “express motivation for conceding guilt
was ... to try to build credibility with the jury, and thus
obtain a sentence lesser than death.”).
On direct review from the Louisiana Supreme Court, the
U.S. Supreme Court reversed McCoy’s conviction on the
ground that his counsel violated his Sixth Amendment
rights, namely the “[a]utonomy to decide that the objective

Case: 19-70036, 12/14/2020, ID: 11925534, DktEntry: 46, Page 15 of 21

Christian v. Thomas

15

of the defense is to assert innocence. »8 Id. at 1508. The
Court held that counsel could not “override” and “interfere”
with a defendant’s decision to maintain innocence, provided
that the client gave “express statements of [his] will” to do
so prior to trial. Id. at 1509. Counsel is nonetheless
permitted to “focus his own collaboration on urging”
alternative theories, such as arguing that the defendant’s
“mental state weighed against conviction.” Id.
The Court elaborated on the proper division of labor
between counsel and client: “With individual liberty—and,
in capital cases, life—at stake, it is the defendant’s
prerogative, not counsel’s, to decide on the objective of his
defense: to admit guilt in the hope of gaining mercy at the
sentencing stage, or to maintain his innocence, leaving it to
the State to prove his guilt beyond a reasonable doubt.” 9 Id.
at 1505. With that said, the defendant’s right to maintain
innocence “should not displace counsel’s . .. trial
management role[].” Id. at 1509. Counsel is permitted to
determine “what arguments to pursue, what evidentiary
objections to raise, and what agreements to conclude
regarding the admission of evidence,” id. at 1508 (citations
omitted), along with “choosing the basic line of defense,
moving to suppress evidence, delivering an opening
statement and deciding what to say in the opening, objecting
to the admission of evidence, cross-examining witnesses,
offering evidence and calling defense witnesses, and
deciding what to say in summation,” id. at 1516 (Alito, J.,
8 The Supreme Court relied on the Assistance of Counsel Clause:
“In all criminal prosecutions, the accused shall enjoy the right... to have
the Assistance of Counsel for his defence.” U.S. Const, amend. VI.
9 The client is also entitled to decide “whether to plead guilty, waive
the right to a jury trial, testify in one’s own behalf, and forgo an appeal.”
McCoy, 138 S. Ct. at 1508.

Case: 19-70036, 15/14/2020, ID: 11925534, DktEntry: 4fi, Page 16 of 21

16

Christian v. Thomas

dissenting) (citing New York v. Hill, 528 U.S. 110, 114-15
(2000)).
The Supreme Court clarified that deprivation of this
constitutional right is a “structural error,” and not one falling
within the purview of the Court’s “ineffective-assistance-ofcounsel jurisprudence.” Id. at 1510-11 (majority opinion).
The Supreme Court did not express whether this rule would
be retroactively applicable on collateral review.
2
Applications for leave to file SOS petitions pursuant to
Section 2244(b)(2)(A) may not be authorized unless the
intervening new constitutional rule has been “made
retroactive to cases on collateral review by the Supreme
Court.” “[T]he Supreme Court is the only entity that can
make a new rule retroactive.” Tyler v. Cain, 533 U.S. 656,
663 (2001). “The Supreme Court can make a rule retroactive
explicitly or through a combination of holdings that
‘logically dictate’ the new rule’s retroactivity.” Young v.
Pfeiffer, 933 F.3d 1123, 1125 (9th Cir. 2019) (citations
omitted).
The Supreme Court will not hold a new constitutional
rule of criminal procedure to be retroactively applicable on
collateral review unless it falls within two narrow
exceptions. Teague v. Lane, 489 U.S. 288, 310 (1989). The
first is for substantive rules that proscribe the criminalization
of particular individual conduct. Id. at 307. The second
is for watershed rules of criminal procedure
implicating the fundamental fairness and
accuracy of the criminal proceeding. To fall
within this exception, a new rule must meet
two requirements: Infringement of the rule

Case: 19-70036, 12/14/2020, ID: 11925534, DktEntry: 46, Page 17 of 21

Christian v. Thomas

17

must seriously diminish the likelihood of
obtaining an accurate conviction, and the rule
must alter our understanding of the bedrock
procedural elements essential to the fairness
of a proceeding.
Tyler, 533 U.S. at 665 (quotation marks and citations
omitted). Absent an explicit statement on retroactivity,
“[t]he Court. . . can be said to have ‘made’ a rule retroactive
within the meaning of § 2244(b)(2)(A) only where the
Court’s holdings logically permit no other conclusion than
that the rule is retroactive.” Tyler, 533 U.S. at 669
(O’Connor, J., concurring) (“[J].e., the holdings must dictate
the conclusion and not merely provide principles from which
one may conclude that the rule applies retroactively.”).
The Supreme Court has not explicitly made McCoy
retroactive. McCoy was heard on direct appeal rather than
collateral review, and the U.S. Supreme Court did not
discuss retroactivity. McCoy, 138 S. Ct. at 1507. Nor has
the Supreme Court in any subsequent decision held McCoy
to be explicitly retroactive.
Neither is McCoy's retroactivity logically dictated by a
combination of holdings from multiple Supreme Court
cases. Christian does not cite to any Supreme Court holdings
that might lend themselves to that conclusion. He argues
only that we should conclude that McCoy's right to maintain
innocence is a watershed rule of criminal procedure because
its withholding, like the right to counsel, “vitiates the
fairness of the conviction.” Reply Br. 14-15 (citing Mackey
v. United States, 401 U.S. 667, 693-94 (1971)). That may
or may not be the case—that is for the Supreme Court to
decide. We may consider only whether the Supreme Court

Case: 19-70036, 12/14/2020, iD: 11925534, DktEntry: 46, Page 18 of 21

18

Christian v. Thomas

has yet done so, either explicitly or through two or more
holdings that in combination perform a logical proof.
To prove retroactivity absent an explicit holding, “[t]he
relationship between the conclusion that a new rule is
retroactive and the holdings that make this rule retroactive
. . . must be strictly logicalTyler, 533 U.S. at 669
(O’Connor, J., concurring) (emphasis added). For example,
in McCoy, the Supreme Court held that the denial of a
defendant’s Sixth Amendment right to maintain innocence
is a “structural” error and held that overriding the client’s
decision as to the objective of the defense was a “[violation
of a defendant’s Sixth Amendment-secured autonomy.”
McCoy, 138 S. Ct. at 1511. Such a rule could be logically
retroactive if, for instance, the Supreme Court had
previously held that “all newly discovered Sixth
Amendment rights are retroactive,” or if it had held that “all
new rights whose deprivation result in structural errors are
.watershed rules of criminal procedure.” The Supreme Court
would not then have had to state explicitly that McCoy was
retroactive: that conclusion would be logically inescapable
based upon the interaction of either of those two premises
with McCoy’s holding.
But Christian does not establish a strictly logical
relationship between McCoy and another Supreme Court
holding. He points to no case that necessarily dictates that
all structural errors are coincident with Teague’s permitted
category of retroactive rights. In fact, the Supreme Court has
said otherwise: “[A] holding that a particular error is
structural does not logically dictate the conclusion that the
second Teague exception has been met.” Tyler, 533 U.S.
at 666-67. Neither does Christian cite to any Supreme Court
case deeming all Sixth Amendment rights to be watershed
rules of criminal procedure implicating the fundamental

Case: 19-70036, 12/14/2020, ID: 11925534, DktEntry: 46, Page 19 of 21

Christian v. Thomas

19

fairness and accuracy of the criminal proceeding. As such,
Christian fails to show that McCoy has logically been made
retroactive. We therefore conclude that the Supreme Court
has not made McCoy v. Louisiana retroactive to cases on
collateral review.
3
Even if we were to hold that McCoy is retroactive,
Christian’s petition does not sufficiently rely on McCoy so
as to present a prima facie case for relief.
“[Section] 2244(b) calls for a permissive and flexible,
case-by-case approach to deciding whether a second or
successive habeas corpus petition ‘relies on’ a qualifying
new rule of constitutional law. We ask whether the rule
substantiates the movant’s claim, even if the rule does not
conclusively decide the claim, or if the rule would need a
non-frivolous extension for the petitioner to get relief.”
Spearman, 899 F.3d at 706 (9th Cir. 2018) (cleaned up).
For Christian’s application to be substantiated by
McCoy, he must show at the very least that his counsel
conceded to his guilt at trial. Christian argues that Ranken,
defying his instructions, changed strategy mid-trial to
forward a theory of self-defense before the jury during
closing arguments. According to Christian, Ranken’s
statements relating to the alternative self-defense argument
ran so counter to the third-man argument pursued during trial
as to have effectively conceded Christian’s guilt. Fie asserts
that this de-facto concession of guilt deprived him of his
right under McCoy to maintain innocence. We do not agree.
Unlike McCoy’s counsel, Ranken never conceded
Christian’s guilt. Ranken never relieved the prosecution of
its burden. Indeed, throughout the trial, Ranken argued that

Case: 19-70036, 12/14/2020, ID: 11925534, DktEntry: 46, Page 20 of 21

20

Christian v. Thomas

Christian was innocent and contested the state’s
identification of Christian as the one who stabbed
Cabaccang.
Moreover, Ranken repeatedly and explicitly prefaced his
self-defense argument as relevant only if the jury concluded
that Christian had stabbed Cabaccang. Ranken’s intention
to argue in the alternative was clear as day: “I’m going to
assume now for the sake of argument;” “just in case you do
get beyond that question that you don’t find a reasonable
doubt as to who did it;” “if [Christian] was the one who did
it.” Trial Tr., Dkt. 2 at 97, 111. No reasonable member of
the jury could view a self-defense argument couched in these
terms as tantamount to a concession of guilt.
Additionally, McCoy makes clear that counsel does not
interfere with the objective of the defense by arguing
alternative theories if he does so in the pursuit of acquittal.
McCoy, 138 S. Ct. at 1508-09 (“[Counsel] could not
interfere with [a defendant’s] telling the jury ‘I was not the
murderer,’ although counsel could, if consistent with
providing effective assistance, focus his own collaboration
on urging that [a defendant’s] mental state weighed against
conviction.”).
While McCoy safeguards the client’s
authority to determine the “objective of the defense,” the
Supreme Court made sure to state that its holding did not
displace counsel’s trial management role, including in
deciding “what arguments to pursue.” Id. at 1508 (citations
omitted).
Urging a jury to consider self-defense as an alternative
argument does not amount to a concession of guilt. Ranken
did not relieve the state of its burden to prove Christian’s
guilt beyond a reasonable doubt. Moreover, Ranken’s
objective in arguing self-defense was identical to
Christian’s: acquittal. His objective was not, as it was in

Case: 19-70036, 12/14/2020, ID: 11925534, DktEntry: 46, Page 21 of 21

Christian v. Thomas

21

McCoy, to forsake acquittal in hopes of obtaining a lighter
sentence.
We hold that counsel does not violate a
defendant’s Sixth Amendment rights under McCoy simply
by arguing self-defense in the alternative.
IV
Christian’s Rule 60(d) filing before the district court
asserted a federal basis for relief from his state conviction,
and thus made a claim covered by 28 U.S.C. § 2244(b). The
filing was properly referred to us and we construe it as an
application for authorization to file a second or successive
petition for writ of habeas corpus. Christian’s application
does not make the required prima facie showing pursuant to
28 U.S.C. § 2244(b)(2). He does not show that McCoy was
made retroactive on collateral review by the Supreme Court
nor that his proposed petition would rely on McCoy's rule.
DENIED.

r

APPENDIX C

Case 1:04-6w^-«w§&s6fot^aB,dR: m 4?%a,
f
10816

r

fegeae a gfei 8

PagelD #:

UN1TED STATES DISTRICT COURT
DISTRICT OF HAWAII
TARYN CHRISTIAN,
Petitioner,
vs.
CLAYTON FRANK, Director,
State of Hawaii Department of
Public Safety, and STATE OF
HAWAII DEPARTMENT OF
PUBLIC SAFETY,
Respondents.

§
§
§
§
§
§
§
§
§
§
§
§
§
§

CIV. NO. 04-00743

ORDER: (1) REFERRING SUCCESSIVE PETITION FOR HABEAS RELIEF
TO NINTH CIRCUIT COURT OF APPEALS; AND (2) DENYING
PETITIONER’S MOTION FOR EXPEDITED HEARING
Before the Court are Petitioner’s: (1) Independent Action for
Equitable Relief from Judgment Under Federal Rule 60(d)(1) Pursuant to
Intervening Supreme Court Precedent in McCoy v. Louisiana (Dkt. # 453), and
(2) Motion for Expedited Hearing to Admit Testimonial Evidence in Support of
Independent Action for Equitable Relief (Dkt. # 459). For the following reasons,
the Court: (1) in the interests of justice, REFERS the independent action for
equitable relief to the Ninth Circuit Court of Appeals pursuant to Ninth Circuit
Rule 22-3(a) because it is a successive petition for habeas relief; and (2) DENIES
Petitioner’s motion for an expedited hearing.

Case

fc$g&#*fe18
f

10817

PagelD #:

r

FACTUAL BACKGROUND
Petitioner is a Hawaii state prisoner serving a life sentence with a
forty-year minimum period of incarceration for murder in the second degree.
(Dkt. # 267 at 12.) The conviction arose out of his alleged involvement in the
July 14, 1995 murder of Vilmar Cabaccang (“Cabaccang”). The facts that follow
are taken from the voluminous record in this case.
On the night of the murder, Cabaccang and his girlfriend, Serena
Seidel (“Seidel”), awoke from sleep and saw through the window that someone
was inside of Cabaccang’s car. Cabaccang and Seidel ran outside to confront the
intruder, but the intruder fled on foot. Cabaccang and Seidel began chasing the
intruder, but Seidel briefly stopped to summon a friend’s help from a nearby
residence. When no one answered the door, Seidel continued her pursuit.
When Seidel caught up to Cabaccang and the intruder, she found the
two men engaged in a struggle. Cabaccang warned Seidel that the intruder had a
knife. Seidel was undeterred from attempting to assist Cabaccang, and eventually
their combined effort caused the intruder to drop the knife and flee the scene. At
that point, Seidel observed blood in the area of the struggle and saw that
Cabaccang had been stabbed. A short time later, Phillip Schmidt (“Schmidt”) a
local resident who had heard the noise from the struggle, rushed to the scene.

2

Case

r

10818

r

ta(§eg$$$fel8 PagelD #:

When Schmidt saw Cabaccang’s injuries, he called 911. Cabaccang eventually
died from the knife wounds.
Although police also investigated James Burkhart (“Burkhart”) and
Christian Dias (“Dias”) as potential suspects, they ultimately prosecuted Petitioner
Taryn Christian (“Petitioner” or “Christian”) for the crime. The prosecution’s
theory was based on six major categories of evidence: (1) a statement from
Christian’s ex-girlfriend, Lisa Kimmey (“Kimmey”), that he had confessed to her;
(2) a recording of a call between Christian and Kimmey, which the prosecution
argued contained a confession; (3) Christian’s baseball cap, which was found at the
scene of the crime; (4) discarded gloves at the crime scene that matched the type
that Christian’s employer, Pukalani Country Club and Restaurant, had in its
kitchen; (5) the fact that Christian had previously stolen car radios from parked
cars and had identified Cabaccang’s car as a target in a notebook; and (6) photo
identifications from Seidel and Schmidt identifying Christian in a photo lineup.
Petitioner was ultimately convicted by a jury in 1997 of seconddegree murder, attempted third-degree murder, attempted third-degree theft and
use of a deadly or dangerous weapon in the commission of a crime.
PROCEDURAL BACKGROUND
On December 22, 2004, Petitioner filed a petition for writ of habeas
corpus pursuant to 28 U.S.C. § 2254, challenging his 1997 conviction and sentence
3

Case

r

10819

'

PagelD #:

(“Prior Petition”). (Dkt. # 1.) On September 30, 2008, this Court issued an order
granting the Prior Petition as to one ground and denying it as to all other grounds.
(Dkt. #153.) The Court ordered that Petitioner be released within seven days of
the entry of judgment unless the State elected to retry Petitioner. However, of
relevance to the instant motions, the Court found the following claim to be without
merit: Petitioner’s ineffective assistance of counsel claim for counsel’s change in
defense theory during closing argument. (See Dkt. # 153 at 28-29.) Both
Petitioner and Respondents filed notices of appeal. (Dkts. ## 157, 165.)
On February 19, 2010, the Ninth Circuit reversed the Order as to the
Court’s order granting Petitioner habeas relief. Christian v. Frank. 595 F.3d 1076,
1078 (9th Cir. 2010). However, the Ninth Circuit did not order remand and
declined to issue a certificate of appealability. Christian v. Frank. 365 F. App’x
877, 879 (9th Cir. 2010). The Ninth Circuit left undisturbed the Court’s findings
on Petitioner’s claim for ineffective assistance of counsel based on a changed
defense theory in closing argument.
On March 11, 2010, Petitioner filed a petition for panel rehearing and
a petition for rehearing en banc. The Ninth Circuit denied both petitions on
May 19, 2010 (Dkt. #221), issuing its Mandate on May 27, 2010 (Dkt. # 222).
Petitioner filed a petition for writ of certiorari with the Supreme Court on

4

Case

<

10820

~

PagelD#:

August 17, 2010, which was denied on November 1, 2010. Christian v. Frank,
131 S. Ct. 511 (2010).
On January 7, 2011, Petitioner moved to reopen his habeas proceeding
pursuant to Federal Rule of Civil Procedure 60(b), alleging newly discovered
evidence of fraud on the Hawaii state court, this Court, and the Ninth Circuit Court
of Appeals. (Dkt. # 229.) In an order dated February 23, 2011, this Court held that
it had been stripped of jurisdiction to consider Petitioner’s Rule 60(b) motion when
Respondents and Petitioner filed notices of appeal with respect to the Prior
Petition. (Dkt. # 255 at 3.) Instead, the Court construed Petitioner’s motion as a
second or successive petition for writ of habeas corpus. (Id.) Noting that a
petitioner may not file a second or successive petition for writ of habeas corpus
unless he first obtains authorization from the court of appeals, see 28 U.S.C.
§ 2244(b)(3), the Court transferred Petitioner’s motion to the Ninth Circuit. (Id. at
4.)

On November 15, 2011, the Ninth Circuit, treating Petitioner’s motion
as an application for authorization to file a second or successive petition for writ of
habeas corpus, denied the application. See Christian v. Frank. No. 11-70561 (9th
Cir. Nov. 15, 2011) (Dkt. # 16). On January 23, 2012, Petitioner filed a writ of
mandamus, arguing that the Ninth Circuit failed to follow established procedures
of appellate review in characterizing Petitioner’s Rule 60(b)(3) motion as
5

Case 1:04-

r

m 4?^, mmm
r

10821

& <&18 PagelD #:

“something it is not” (Dkt. # 261-1); the Ninth Circuit denied the writ on February
16, 2012 (Dkt. # 260).1 On May 14, 2012, Petitioner filed a petition for a writ of
certiorari (Dkt. #261), which the Supreme Court denied on October 9, 2012 (Dkt.
# 263).
On April 17, 2013, Petitioner filed a Motion to Reopen Habeas
Corpus Proceedings Pursuant to Federal Rule of Civil Procedure 60(b) Motion,
alleging newly discovered evidence of fraud on the Court. (Dkt. # 267.) In his
Motion, Petitioner argued that evidence came to light that Respondents perpetrated
a fraud on the court, which corrupted the integrity of Petitioner’s original habeas
corpus proceeding. (Id. at 11.) The Court determined that Petitioner’s motion was
not a second or successive petition for writ of habeas corpus, but instead alleged
fraud upon the court, a matter this Court had jurisdiction to review under Rule 60
of the Federal Rules of Civil Procedure. (Dkt. # 286 at 5-11.)
Because the record before the Court was insufficient to establish the
precise value of the evidence allegedly withheld, the Court ordered that an
evidentiary hearing be held on Petitioner’s motion. (Dkt. # 348.) Respondents
sought a writ of mandamus in the Ninth Circuit to block the Court from proceeding
with the hearing. The Ninth Circuit denied the writ. The Court held the
evidentiary hearing on July 16, 2014. (Dkt. # 348.) However, because the Court
1 The Ninth Circuit denied Petitioner’s subsequent writ of mandamus on
December 23, 2013. (Dkt. # 293.)
6

Case 1:04-

f

4^3,
10822

“

kcfi^9P Jf 3fe18 Pagel D #:

was unable to hear all of the relevant evidence and because Petitioner had obtained
counsel only shortly before the hearing, the hearing was continued until March 16,
2015, at which time additional evidence was presented to the Court. (Dkts. ## 362,
377.) On December 1, 2015, final oral argument was held on the motion. (Dkt.
# 404.) On December 28, 2015, the Court entered an order denying Petitioner’s
motion to reopen habeas corpus proceedings. (Dkt. # 406.)
On January 6, 2016, Petitioner filed a motion to reconsider the Court’s
order denying his motion to reopen. (Dkt. # 407.) On February 10, 2016, the
Court denied this motion on the grounds that Petitioner had not cleared the high
hurdle necessary to warrant the extraordinary remedy of reconsideration. (Dkt.
# 410.) On April 12,2016, the Court denied Petitioner’s second motion for
reconsideration and stated that “[n]o further motions to reconsider will be
entertained.” (Dkt. # 420 at 16.) On June 2, 2016, the Court denied Petitioner’s
third motion to reconsider. (Dkt. # 425.) On June 29, 2016, the Court denied
Petitioner a Certificate of Appealability. (Dkt. # 427.) On September 12, 2016, a
petition for writ of mandamus filed by Petitioner was received by the Ninth
Circuit. (Dkt. #431.) On November 21, 2016, the Ninth Circuit denied the
petition for writ of mandamus. (Dkt. # 433.)
On December 27, 2016, Petitioner filed a motion for relief pursuant to
Rule 60(d)(3) and to disqualify the undersigned pursuant to 28 U.S.C. §§ 455(a),
7

Case 1:04-

f

10823

^

PagelD #:

455(b)(1). (Dkt. # 434.) On February 13, 2016, Petitioner filed a motion asking
that his case be reassigned to a different district court judge. (Dkt. # 439.) On
February 15, 2017, the Court denied both of Petitioner’s motions, finding that the
motion for Rule 60(d)(3) relief was in effect a fourth attempt at reconsideration of
the Court’s order denying Petitioner’s Rule 60(b) motion alleging fraud on the
habeas court. (Dkt. # 440). The Court also denied Petitioner a certificate of
appealability. (Dkt. # 445.) On March 13, 2017, Petitioner appealed the Court’s
order to the Ninth Circuit. (Dkt. # 441.) On June 12, 2017, the Ninth Circuit
declined to issue a certificate of appealability. (Dkt. # 450.) On August 2, 2017,
the Ninth Circuit denied Petitioner’s “Motion for Clarification and
Reconsideration,” stating that “[n]o further filings will be entertained in this closed
case.” (Dkt. # 452.)
On April 19, 2017, while his March 13, 2017 appeal was still pending,
Petitioner filed a Petition for Writ of Mandamus for Disqualification Pursuant to
28 U.S.C. §§ 455(a) and 455(b)(1), which essentially repeated the relief he sought
in the district court. (Dkt. # 448.) On July 26, 2017, the Ninth Circuit denied the
petition for a writ of mandamus. (Dkt. #451.)
On October 19, 2018, in Petitioner’s most recent round of filings,
Petitioner moved the Court for equitable relief from judgment under Rule 60(d)(1)
of the Federal Rules of Evidence. (Dkt. # 453.) Petitioner contends that the
8

Case

46$4$^,$tfe18 PagelD #:

^

10824

Supreme Court’s recent decision in McCoy v. Louisiana, 138 S.Ct. 1500 (2018), is
intervening precedent that justifies vacating the Court’s prior habeas judgment and
reopening the proceedings in this case “to rectify error that has resulted in a grave
miscarriage of justice.” (Dkt. # 453 at 2.) On November 8, 2018, Respondents
filed a response in opposition. (Dkt. # 455.) Petitioner filed a reply on
November 15, 2018. (Dkt. #456.)
On December 4, 2018, Petitioner filed a motion for expedited hearing
to admit testimonial evidence in support of his motion for equitable relief pursuant
to Rule 60(d)(1). (Dkt. # 459.) On December 20, 2018, Respondents filed a
response in opposition. (Dkt. #461.) On December 28, 2018, Petitioner filed a
reply. (Dkt. # 463.)
APPLICABLE LAW
I

Federal Rule of Civil Procedure 60(dl(L)
Rule 60(d)(1) permits the Court to “entertain an independent action to

relieve a party from judgment, order, or proceeding. . ..” Fed. R. Civ. P. 60(d)(1).
Because a Rule 60 independent action is an equitable one, the proponent must
show a meritorious claim or defense. Furthermore, relief under Rule 60(d) is
reserved for the rare and exceptional cases where a failure to act would result in a
miscarriage of justice. United States v. Beggerlv. 524 U.S. 38,42^16 (1998).

9

Case

PagelD#:
10825

Rule 60 may not be used to challenge once again the movant’s
underlying conviction after his habeas petition attacking the same conviction has
been denied. Like a Rule 60(b) motion, one brought under Rule 60(d) may not be
used as a substitute for appeal. Fox v. Brewer. 620 F.2d 177, 180 (8th Cir. 1980);
see Payton v. Davis, 906 F.3d 812, 818 (9th Cir. 2018). An independent action
brought under Rule 60(d) is generally treated the same as a motion under Rule
60(b). Nevada VTN v. Gen. Ins. Co. of Am.. 834 F.2d 770, 775 (9th Cir. 1987).
II.

Successive Flabeas Petition
Because Rule 60(b) and 60(d) are similar, a court performs the same

analysis with respect to a Rule 60(b) motion. See Blackwell v. United States. No.
4:99-CV-1687, 2009 WL 3334895, at *7 (E.D. Mo. Oct. 14, 2009). For habeas
petitioners, a Rule 60(b) motion may not be used to “make an end-run around the
requirements of AEDPA or to otherwise circumvent that statute’s restrictions on
second or successive habeas corpus petitions” set forth in 28 U.S.C. § 2244(b).
Jones v. Ryan. 733 F.3d 825, 833 (9th Cir. 2013) (quoting Calderon v. Thompson.
523 U.S. 538 (1998)) (internal quotation marks omitted). This statute has three
relevant provisions: (1) § 2244(b)(1) requires dismissal of any claim that has
already been adjudicated in a previous habeas petition; (2) § 2244(b)(2) requires
dismissal of any claim not previously adjudicated unless the claim relies on either a
new and retroactive rule of constitutional law or on new facts demonstrating actual
10

Case l:04-g^)7%-W@%§fe/0^@uRi^R,t:4d3<ife18 PagelD#:
10826

innocence of the underlying offense; and (3) § 2244(b)(3) requires prior
authorization from the Court of Appeals before a district court may entertain a
second or successive petition under § 2244(b)(2). Absent such authorization, a
district court lacks jurisdiction to consider the merits of a second or successive
petition. United States v. Washington. 653 F.3d 1057, 1065 (9th Cir. 2011);
Cooper v. Calderon. 274 F.3d 1270, 1274 (9th Cir. 2001).
There is no ‘"bright-line rule for distinguishing between a bona fide
Rule 60(b) motion and a disguised second or successive [§ 2254] motion.” Jones.
733 F.3d at 834 (quoting Washington. 653 F.3d at 1060). In Gonzalez v. Crosby,
the Supreme Court held that a Rule 60(b) motion constitutes a second or successive
habeas petition when it advances a new ground for relief or “attacks the federal
court’s previous resolution of a claim on the merits.” 545 U.S. at 532. “On the
merits” refers “to a determination that there exist or do not exist grounds entitling a
petitioner to habeas corpus relief under 28 U.S.C. §§ 2254(a) and (d).” Id. at 532
n.4. A legitimate Rule 60(b) motion “attacks, not the substance of the federal
court’s resolution of a claim on the merits, but some defect in the integrity of the
federal habeas proceedings.” Id. at 532; accord United States v. Buenrostro. 638
F.3d 720, 722 (9th Cir. 2011) (observing that a defect in the integrity of a habeas
proceeding requires a showing that something happened during that proceeding
“that rendered its outcome suspect”). For example, a Rule 60(b) motion does not
11

Case
^

4d3 4$^,
10827

q_& 8 PagelD#:

constitute a second or successive petition when the petitioner “merely asserts that a
previous ruling which precluded a merits determination was in error—for example,
a denial for such reasons as failure to exhaust, procedural default, or statute-of1 imitations bar”—or contends that the habeas proceeding was flawed due to fraud
on the court.2 Id. at 532 nn. 4-5; see, e.g.. Butz v. Mendoza-Powers. 474 F.3d
1193 (9th Cir. 2007) (holding that “where the district court dismisses a petition for
failure to pay the filing fee or to comply with the court’s orders, the district court
does not thereby reach the “merits” of the claims presented in the petition and a
Rule 60(b) motion challenging the dismissal is not treated as a second or
successive petition”). The Court reasoned that if “neither the motion itself nor the
federal judgment from which it seeks relief substantively addresses federal grounds
for setting aside the movant’s state conviction,” there is no basis for treating it like
a habeas application. Gonzalez. 545 U.S. at 533.
On the other hand, if a Rule 60(b) motion “presents a ‘claim,’ he., ‘an
asserted federal basis for relief from a ... judgment of conviction,’ then it is, in
substance, a new request for relief on the merits and should be treated as a
disguised” habeas application. Washington. 653 F.3d at 1063 (quoting Gonzalez.

2 The Court notes that Petitioner has already unsuccessfully challenged his habeas
proceeding on grounds that it was flawed due to fraud on the Court pursuant to
Rule 60(b). (See Diet. # 406.1
12

Case

PagelD#:
10828

545 U.S. at 530). Interpreting Gonzalez, the court in Washington identified
numerous examples of such “claims,” including:
a motion asserting that owing to excusable neglect, the movant’s
habeas petition had omitted a claim of constitutional error; a motion to
present newly discovered evidence in support of a claim previously
denied; a contention that a subsequent change in substantive law is a
reason justifying relieffrom the previous denial of a claim., a motion
that seeks to add a new ground for relief; a motion that attacks the
federal court’s previous resolution of a claim on the merits; a motion
that otherwise challenges the federal court’s determination that there
exist or do not exist grounds entitling a petitioner to habeas corpus
relief; and finally, an attack based on the movant’s own conduct, or
his habeas counsel’s omissions.
Id. (internal quotations and citations omitted) (emphasis added). If a Rule 60(b)
motion includes such claims, it is not a challenge “to the integrity of the
proceedings, but in effect asks for a second chance to have the merits determined
favorably.” Gonzalez. 545 U.S. at 532 n.5.
ANALYSIS
Petitioner seeks equitable relief from the judgment on his Prior
Petition for habeas relief pursuant to Rule 60(d)(1). (Dkt. # 453.) Specifically,
Petitioner contends that the Supreme Court’s May 2018 decision in McCoy v.
Louisiana. 138 S.Ct. 1500 (2018), warrants the Court’s relief from his prior
judgment. (Id.) According to Petitioner, in light of McCoy, the relief he requests
is necessary to avoid a “grave miscarriage of justice” in his case. (Id. at 11.)

13

Case l:04-6^7l&^§fe§&04&@ii8idft:436Tfe18 PagelD #:
^

10829

^

In his Prior Petition for habeas relief, Petitioner claimed that his trial
counsel’s change in defense theory resulted in ineffective assistance of counsel.
(See Dkt. # 153 at 28.) Petitioner argued that his trial counsel’s presentation of
alternate theories of defense during closing argument that Petitioner did not
commit the crime, but that if he did do it, it was in self-defense, had no chance of
convincing the jury to find him not guilty. (See id.) Relying on Strickland v.
Washington. 466 U S. 668, 687 (1994), this Court adopted the Magistrate Judge’s
recommendation that trial counsel’s performance did not fall below an objective
standard of reasonableness as it was within the wide range of competence and trial
strategy. (Id. at 28-29.) Thus, the Court determined that Petitioner’s ineffective
assistance of counsel claim on that basis was without merit. (Id.)
In the instant motion, Petitioner now argues that this Court’s findings
regarding counsel’s trial strategy conflicts with the Supreme Court’s rule in
McCoy. (Dkt. # 453 at 20.) According to Petitioner, McCoy establishes that the
Court erred in deciding the merits of his prior habeas petition, raising exceptional
circumstances justifying the independent action for relief he now presents to the
Court. (Id.)
In McCoy v. Louisiana, the Supreme Court considered the case of a
defendant who had been convicted on three counts of first-degree murder and
sentenced to death. 138 S.Ct. at 1500. The defense attorney there concluded that
14

Case

^

10830

^

PagelD#:

the evidence against the defendant was overwhelming and that the best or only way
to avoid a death sentence at the penalty phase of the trial was to concede at the
guilt phase of the trial that the defendant was the killer and then urge mercy in
view of his “serious mental and emotional issues.” Id. at 1506-07. The defendant
both before and during the trial “vociferously insisted that he did not engage in the
charged acts and adamantly objected to any admission of guilt.” Id at 1505. The
state court nonetheless denied his requests to tenninate his counsel’s representation
and for a new trial, concluding that the defendant’s counsel had the authority to
concede guilt despite the defendant’s opposition to the concession. Id. at 1506-07.
The Supreme Court reversed and held that “a defendant has the right to insist that
counsel refrain from admitting guilt, even when counsel’s experienced-based view
is that confessing guilt offers the defendant the best chance to avoid the death
penalty.” Id. at 1505.
The Court reasoned that while “[tjrial management is the lawyer’s
province,” including decisions as to “what arguments to pursue, what evidentiary
objections to raise, and what agreements to conclude regarding the admission of
evidence,” id. at 1508 (quoting Gonzalez. 553 U.S. at 248), a criminal defendant is
entitled to “[ajutonomy to decide that the objective of the defense is to assert
innocence” and to “insist on maintaining her innocence at the guilt phase of a
capital trial.” McCoy. 138 S.Ct. at 1508. As the Court stated, “[tjhese are not
15

Case

r

10831

PagelD#:

strategic choices about how best to achieve a client’s objectives; they are choices
about what the client’s objectives in fact are.” Id.
As in McCoy. Petitioner argues that the record in his case
demonstrates that his Sixth Amendment right to autonomy was violated by his trial
counsel when he abruptly switched defense theories during closing argument
despite Petitioner’s insistence on maintaining his innocence. He relies on evidence
that he refused to provide written consent to his trial counsel’s request that he
authorize him to argue a “self-defense” theory of the case. (Dkt. # 456 at 10.)
Petitioner also contends that the record is clear that he disagreed with trial counsel
throughout trial, and that he attempted to have his counsel removed from the case
during trial to no avail. (Id. at 11.) Additionally, Petitioner asserts that his trial
counsel’s post-trial pleadings confirm Petitioner’s specific intent to maintain his
innocence at trial. (Id at 11-12.) For these reasons, Petitioner contends that
McCoy demonstrates that his Sixth Amendment right to autonomy was violated
when his counsel argued a self-defense theory of the case over Petitioner’s
objections. He requests that the Court grant him relief pursuant to an independent
action filed under Rule 60(d)(1).
Upon careful review, the Court finds that Petitioner’s argument
reveals that he is not attacking “some defect in the integrity of federal habeas
proceedings,” as he has already done in previous filings, but rather, is presenting a
16

Case

r

10832

PagelD#:

federal basis for relief from his underlying conviction, predicated on his Prior
Petition for habeas relief. Thus, the Court finds that Petitioner’s Rule 60(d)(1)
motion amounts to a successive habeas petition for which this Court lacks proper
jurisdiction to review under 28 U.S.C. § 2244 absent permission from the Ninth
Circuit Court of Appeals.
Ninth Circuit Rule 22-3(a) provides, “If a second or successive
petition or motion, or an application for authorization to file such a petition or
motion, is mistakenly submitted to the district court, the district court shall refer it
to the court of appeals.” Because Petitioner’s motion is a “second or successive”
§ 2254 motion that requires certification before it may proceed in this Court, the
Court refers the matter to the Ninth Circuit pursuant to Rule 22-3(a) for
certification purposes. This referral leaves nothing pending before this court.
Additionally, because the Court is without jurisdiction to consider Petitioner’s
successive habeas petition, the Court will DENY Petitioner’s motion for expedited
hearing related to the petition.
CONCLUSION
Based on the foregoing, the Court REFERS Petitioner’s “second or
successive” § 2254 motion to the Ninth Circuit pursuant to Rule 22-3(a) for
certification purposes. The Clerk of Court is directed to send this order, along with
Petitioner’s motion, to the Ninth Circuit. The Clerk of Court is also directed to
17

Case

<£tfi« PagelD #:

terminate Petitioner’s motion pending the Ninth Circuit’s certification decision.
The Court DENIES Petitioner’s Motion for Expedited Hearing to Admit
Testimonial Evidence in Support of Independent Action for Equitable Relief (Dkt.
# 459).
IT IS SO ORDERED.
DATED: Honolulu, Hawaii, January 4, 2019.
o.

David A fern Ezra
Senior United States Distict Judge

18

Case

PagelD
#: 10834

GARY A. MODAFFERI, ESQ.
Hawaii Bar No. 3379
Nevada Bar No. 12450
Law Office of Gary A. Modafferi LLC
815 S, Casino Center Boulevard
Las Vegas, Nevada. 89101
Telephone: (702) 474-4222
modafferi 1 aw@gm ail.com
Attorney for Petitioner
TARYN CHRISTIAN
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
TARYN CHRISTIAN
CIV. NO. 04-00743 DAE-KSC
Petitioner
vs.

CLAYTON FRANK,
Respondent.
PETITIONER’S INDEPENDENT ACTION FOR EQUITABLE RELIEF
FROM JUDGMENT UNDER FEDERAL RULE 60(d)(1) PURSUANT
TO INTERVENING SUPREME COURT PRECEDENT IN
MCCOY V. LOUISIANNA. (2018)
Petitioner, Taryn Christian, by and through his undersigned counsel, respectfully
moves by Independent Action under Fed. R. Civ. P. 60(d)(1) for equitable relief from
judgment of his federal habeas corpus application closed by the judgment of this Court
entered on September 30, 2008 (Doc. 153). Petitioner’s grounds for equitable relief are
cognizable under Fed. R. Civ. P. 60(d)(1) /Independent action as interpreted in Beggerlv.
Gonzalez. Article III, and/or 28 U.S.C. §2243.
This Independent Action is brought on the grounds that the Supreme Court’s
1

Case 1:04-cv-00743-DAE-KSC Documen
PagelD #:
0534

Filed 10/19/18 Page 1 of 39

Case

?FPagelD
#: 10835

intervening decision in McCoy v. Louisiana. 584 U.S.

, (2018), which governs the

facts and circumstances of Petitioner’s Sixth Amendment claim, warrants the District
Court’s notice in the interests of fundamental justice, to vacate its habeas judgment and
reopen the proceedings to rectify error that has resulted in a ‘grave miscarriage of
justice.’ Extraordinary circumstances are demonstrated where the Justices of the Supreme
Court have opined that the Sixth Amendment violation described herein, as one that is
“rare” and therefore corrected on appeal. The federal courts have repeatedly concluded
that when a party to federal litigation receives an inconsistent application of the law
which deprives him of a right accorded to other similarly situated parties, “extraordinary
circumstances” exist which warrant post-judgment relief.
The motion for equitable relief from judgment is outlined more fully in the
accompanying Memorandum of Points and Authorities and supporting documents. Using
its power to ensure justice, this Court should grant equitable relief where the common
law tradition, developed over centuries across the English-speaking world, mandates that
if the client gives clear instruction that his defense is to be “not guilty”, defense counsel
is required to honor that instruction and is forbidden to argue his client is guilty.
Dated this 19th day of October, 2018.
/s/ Gary A. Modafferi
GARY A. MODAFFERI, ESQ.
Hawaii Bar No. 3379
Attorney for Petitioner.

2

Case

^@4/g@iQ^^t14^404^|^^i^/^-2pl|p€3^fL^1
#: 10836

GARY A. MODAFFERI, ESQ.
Hawaii Bar No. 3379
Nevada Bar No. 12450
Law Office of Gary A. Modafferi LLC
815 S, Casino Center Boulevard
Las Vegas, Nevada. 89101
Telephone: (702) 474-4222
modafferilaw@gmail.com
Attorney for Petitioner
TARYN CHRISTIAN
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
TARYN CHRISTIAN
CIV. NO. 04-00743 DAE-KSC
Petitioner,
v.
CLAYTON FRANK,
Respondent.
PETITIONER’S MEMORANDUM OF POINTS AND AUTHORITIES
IN SUPPORT OF FEDERAL RULE 60(d)(1) INDEPENDENT ACTION
FOR EQUITABLE RELIEF FROM JUDGMENT PURSUANT TO
INTERVENING SUPREME COURT DECISION IN
MCCOY V. LOISIANNA. 584 U.S.__ (2018).

pagelD

Case 1:0^eW0WW
#: 10837

PagelD

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES
INTRODUCTION

1

JURISDICTION

3

STATEMENT

4

A. Trial Proceedings

4

B. Habeas Judgment

9

ARGUMENT........................

11

I.

IN LIGHT OF SUPREME COURT PRECEDENT IN ,
MCCOY V. LOUISIANA. WHICH GOVERNS PETITIONER’S
SIXTH AMENDMENT CLAIM—PETITIONER’S RULE 60(d)(1)
INDEPENDENT ACTION TO ADDRESS A ‘GRAVE
MISCARRIAGE OF JUSTICE’ IS PROPERLY BEFORE THE
DISTRICT COURT.....................................................

11

A. An Independent Action Pursuant to Rule 60(d)(l) Codifies
Legal Grounds and Procedures to Relieve a Party of the
Final Judgment to Address a ‘Grave Miscarriage of Justice’

14

(i) The ‘ Miscarriage of Justice’ Standard Defined...............

17

B. Petitioner’s Independent Action Satisfies the Equitable
Requirements for Relief.............................. ...................

18

(i) Petitioner Satisfies McCoy’s Core Requirement
Where His Trial Counsel Conceded Guilt Over
His Express Objection..........................................

18

(ii) The District Court Egregiously Misunderstood the
Constitutional Significance of Petitioner’s Right of
Autonomy to Assert an Innocence-Based Defense
at Trial and the ‘Structural’ Error That Resulted
From its Violation...............................................

19

(iii) Petitioner’s Independent Action is Proper in the
Absence of Any Other Remedy at Law to Afford
the District Court to Correct Error........................

20

Case l:O^M)WW

Page|D
#: 10838

TABLE OF CONTENTS
(continued)
Page
(iv) Extraordinary Circumstances Warranting Equitable
Relief Exist, Where Petitioner Recei ved an Erroneous/
Inconsistent Application of the Law by the Federal Court
II.

III.

20

PURSUANT TO MCCOY’S PRECEDENT—THE DISTRICT
COURT HAS A FUNDAMENTAL INTEREST AND A DUTY
TO SEE THAT JUSTICE IS DONE IN PETITIONER’S CASE
—WARRANTING THE REOPENING OF THE HABEAS
ACTION TO RECTIFY A GRAVE ‘MISCARRIAGE OF JUSTICE’

22

A. In All Common Law Jurisdictions Counsel May Not
Concede Guilt Against Instructions from the Client.................

24

EXCEPTIONAL CIRCUMSTANCES ARE DEMONSTRATED
WHERE JUSTICES OF THE SUPREME COURT OPINED
THE DESCRIBED SIXTH AMENDMENT VIOLATION
AS “RARE” AND “UNLIKELY TO RECUR”....................................

27

CONCLUSION

28

CERTIFICATE OF SERVICE

29

ii

Case 1:04^K)WW

PagelD
#: 10839

TABLE OF AUTHORITIES
CASES

Page

Arizona v. Fulminante.
499 U.S. 279, 310 (1991)

20

Anders v. California,
386 U.S. 738, 745 (1967)

22

Bankers Mortg. Co. v. United States,
423 F. 2d 73, 79 (5th Cir. 1970)

15

Barrett v.Secretary of Health & Human Services.
840 F.2d at 1262 (1987)........................................

14

Bronson v. Schulten.
104 U.S. (14 Otto) 410, 417 (1881)

3

Cincinnati Insurance Co. v. Byers.
151 F.3d 574 (6th Cir. 1998)

21

Diaz-Fonseca v. Puerto Rico.
451 F.3d at 36 (2006)

21

Faretta v. California,
422 U.S. 806,819 (1975)

1,12,22

Gondeck v. Pan American World Airways.
382 U.S. 25,27 (1965)

21

Gonzalez v. United States.
553 U. S. at 254 (2008)....

11

Gonzalez v. Crosby.
545 U.S.___, 125 S.Ct. at 2648 (2005)

16,17

Griffin v. Swim-Tech Corn..
722 F.2d 677, 680 (11th Cir. 1984)

16

Holton v. Olcott.
58 N. H. 598.....

21

iii

Case 1:O4^0OWW

pagelD
#: 10840

TABLE OF AUTHORITIES
Cases

Page

In Re Abdur’Raman.
392 F.3d 174 (6th Cir. 2004)(en banc)

16

In re Moulton,
50 N. H. 532..

21

Jones v. Barnes,
463 U.S. 745, 751 (1983)

14

Jackson v. Sok.
65 Fed.Appx. 46 (6th Cir. 2003)

21

Kotteakos v. United States.
328 U.S.750, 90 L Ed 1557 (1946)

18

Martinez v. Court of Appeal of Cal. Fourth Appellate Dist.,
528 U. S. 152, 165 (2000).......................................................

13

McCoy v. Louisiana.
584 U.S.__(2018)..

1,3,10,19,20

McKaskle v. Wiggins,
465 U.S. at 177(1984)

22

Mitchell v. Rees,
651 F.3dat 599 (2011)

16

Neder v. United States.
527 U.S. 1,7(1999)....

20

Overbee v. Van Waters.
765 F.2d 578 (6th Cir. 1985)

21

People v. Musumeci.
Cal App 2d 354, 284 P2d 168

18

Pierce v. Cook & Co..
518 F.2d 720 (10th Cir. 1975)(en banc)

21

iv

Case l:0^fet)WW

pageiD
#: 10841

TABLE OF AUTHORITIES
Cases

Page

Pickford v. Talbott,
225 U S. 651, 657, 32 S.Ct. 687, 56 L.Ed. 1240 (1912)

15

Rader v. Clibum.
476 F.2d 182, 184 (6th Cir. 1973)

16

Rose v. Clark,
478 U.S. 570, 577-578 (1986)

20

Silvev v. U. S..
7 Ct Cl. 324

21

State v. Carter.
14 P.3d 1138, 1148 (Kan. 2000)

23

Strickland v. Washington.
466U. S. 668 (1984)
Solomon v. DeKalb County, Georgia.
154 Fed. Appx. 92 (11th Cir. 2005)
United States v. Beggerly,
524 U.S. 38 (1998)...........
United States v. Cronic.
466 U.S. 648(1984)....

2,9,13,22

16

3,15,16

13, 23

United States v. Gonzalez-Lopez.
548 U.S. at 146 (2006).................

23

United States v. Locke.
471 U. S. 84, 94, n. 10(1985)

15

United States v. Ohio Power Co..
353 U.S. 98,99 (1957).................

4

United States v. Teague.
953 F.2d 1525, 1533 (1 1th Cir. 1992)

12

Case

’f^pag^pfi^l

PagelD

#:10842

TABLE OF AUTHORITIES
Cases

Page

United States v. Williamson.
53 F.3d 1500, 1511 (10th Cir. 1995)

19, 22

Weaver v. Massachusetts,
582 U.S. _, (2017) (slip op., at 6) (2017)

13

Wiley v. Sowders, 647 F.2d 642,
560 (6th Cir. 1981).......................

19

CONSTITUTIONAL PROVISIONS:
U.S. Const. Art. Ill §2
U.S. Const., Arndt. 6 .

4

passim

STATUTES:
28U.S.C. § 2243
28 U.S.C. § 2254

4

9

RULES:
Fed. R. Cnm. P. 52(a)..
Fed. R. Civ. P. 60(d)(1)

20

passim

OTHER AUTHORITIES: Common Law Jurisdictions
Anderson v. H. M. Advocate.
(1996) J.C. 39 (Scot.)

25

R. v. Clinton.
(1993) 1 W.L.R. 1181 (1993) 2 All E.R. 998 (Eng.)

24

R. v. Ellis.
(1973) 57 Cr. App. R. 571 (Eng.)

24

R. v. McLoughlin.
(1985) 1 NZLR 106 (CA)

25

R, v. G.D.B.(2000) 15 C.R. 520 (Can.)

25
vi

Case

PagelD

#: 10843

TABLE OF AUTHORITIES
Cases

Page

R. v. Szostak.
(2012), 111 O R. 3d 241 (Can. Ont. C.A.)

25

S. v. Mafu and Others,
2008 (2) ALL SA 657 (W) (S.Afr.)

26

S v. Mofokeng.
2004 (1) SACR 349 (W) (S. Afr.)

26

Tuckiar v. The King.
(1934) HCA 49, (1934) 52 CLR 335, (Austl.)

24

Other Authorities
Bar of Ireland, Code of Conduct for the
Bar ofIreland (2016).............................

25

Dana S. Seetahal, Commonwealth Caribbean
Criminal Practice and Procedure 230 (4th ed. 2014)

27

Etienne du Toit, et al., Commentary on the
Criminal Procedure Act
11-42E (1987).

26

4 C. Wright & A. Miller, Federal Practice and Procedure
§1056 (Supp 1998)................................. ...........................

15

11 C. Wright & A. Miller, Federal Practice & Procedure
§ 2868, at 237-38 (1973)...................................................

14

ABA Model Rule of Professional Conduct 1.2(a) (2016)

11

vii

Case

1f%$m.Vcffh.W PagelD
#: 10844

INTRODUCTION
The Supreme Court in its recent landmark decision in McCoy v. Louisiana. 584
U.S.

(2018), addressed the constitutional question whether it is unconstitutional for

defense counsel to admit an accused’s guilt to the jury over his client’s express objection.
The Court’s decision, authored by the Honorable Justice, Ruth Bader Ginsburg, affirmed
that the Sixth Amendment guarantees a defendant the right of autonomy to choose the
objective of his defense and to insist that his counsel refrain from admitting guilt.
McCoy sought to exercise his autonomy on one of the most fundamental decisions
a defendant can possibly make—whether to admit or deny his own guilt before a jury. On
trial for his life, McCoy made an informed, intelligent, and timely decision to maintain
his innocence and put the state to its burden. That decision was not respected by his
attorney. Over McCoy’s express objection, the trial court permitted his attorney, Larry
English, to tell the jury that McCoy was guilty of murder. A unanimous jury returned a
verdict for first degree murder and sentenced McCoy to death. The Supreme Court
reversed the Louisiana Supreme Court’s decision that McCoy’s attorney had authority to
concede guilt despite McCoy’s opposition—finding that it was incompatible with the
Sixth Amendment and because the error was ‘structural’ and not subject to harmless-error
review, a new trial was the required corrective.
The Sixth Amendment is addressed to the accused; it grants to him personally the
right to make a defense—not to his lawyer and not to the state. Faretta v, California. 422
U.S. 806, 819 (1975), and therefore it is the accused who must have the ultimate
authority to admit guilt. The Supreme Court observed that autonomy to decide whether to
1

Case 1:04^D'0WW

PagelD
#: 10845

concede guilt is a fundamental component of the client’s right to set the objectives of his
representation; it is not a mere question of tactics best left to the lawyer’s expertise
Justice Ginsburg wrote that where a client’s autonomy, not counsel’s competence, is in
issue, ineffective assistance jurisprudence is an inapt frame-work for understanding
defendant autonomy—therefore its ineffective-assistance-of counsel jurisprudence under
Strickland v. Washington. 466 U. S. 668 (1984), did not apply.
Petitioner, Taryn Christian, like Robert McCoy, made it clear beyond any doubt,
both to his lawyer, Anthony Ranken, and the trial court, that he chose to defend against
the charges and assert his innocence. This was especially clear where he plead not guilty
and the defense had proffered three witnesses to testify that a third party had confessed to
the murder for which Petitioner was charged. Yet, over Petitioner’s express objection,
and over Petitioner’s request to testify before closing argument, his attorney reversed the
defense’s position from its opening statement, and in closing-summation, told the jury
that Petitioner had committed the murder—but had acted in “self-defense”. A unanimous
jury returned a verdict of second-degree murder and Petitioner was sentenced to life.
Upon habeas review, the District Court, adopting the Magistrate Judge’s findings
and recommendation, attached no constitutional significance to Petitioner’s protected
Sixth Amendment right of autonomy to assert his innocence at trial, or the “structural”
error that resulted from its violation. Applying a narrow reading of Strickland, the habeas
court concluded Mr. Ranken’s decision in his closing summation was reasonable defense
strategy. The District Court’s reasoning reflects the conclusion that defense counsel, not
Petitioner, controlled the decision whether to admit guilt. Such reasoning posited a
2

Case 1:0^P#%0WW

0F*3ia®l$&PflM1 PagelD
#: 10846

conflict between the Sixth Amendment right to defend against the charges and that of
having the assistance of counsel. The Supreme Court’s explicit holding in McCoy made
clear that no claim of coherent defense strategy could justify counsel’s admission—
indeed, prosecution—of his client’s guilt in the face of his express objection. The District
Court’s habeas judgment is contrary to the fundamental principles affirmed by McCoy’s
holding, where the Supreme Court held that the Constitution does not permit what
happened here.
Taryn Christian’s Sixth Amendment right of autonomy was indeed violated by the
actions of his trial attorney, and that his constitutional claim was wrongly decided and
erroneously foreclosed from appellate review—resulting in a ‘grave miscarriage of
justice’ warranting the District Court’s immediate notice and correction of its habeas
judgment, that can no longer in good conscience be enforced.
JURISDICTION
In United States v. Beggerlv. 524 U.S. 38 (1998), the Supreme Court held that “an
independent action brought in the same court as the original lawsuit [does not] requir[e]
an independent basis for jurisdiction.” Id. at 46. In every federal case—habeas or nonhabeas—Article III provides a District Court “inherent power ... over its own
judgments.” Bronson v. Schulten. 104 U.S. (14 Otto) 410, 417 (1881). Article III
provides a district Court plenary equitable power to revisit and/or revise its own
judgments in the interest of fundamental justice. That inherent power dates to the
adoption of Article III itself, which extends federal j urisdiction to all matters of equity.
See U.S. Const. Art. Ill §2. See also United States v. Ohio Power Co.. 353 U.S. 98, 99
3

Case

?(%$&&&&&

PagelD

#: 10847

(1957) (per curium (acknowledging a federal court’s “power over [its] own judgment.”).
In habeas proceedings, 28 U.S.C. § 2243 compliments a District Court’s inherent Article
Ill equitable powers over its judgment, endowing a District Court with “all the freedom
of equity procedure” necessary to revise a j udgment in the interest of fundamental justice.
STATEMENT
A.

Trial Proceedings

On August 17, 1995, Petitioner, Taryn Christian, was arrested without warrant or
grand jury indictment and charged with the murder of Vilmar Cabaccang that occurred on
July 14, 1995. From the time he was arrested Petitioner consistently maintained his
innocence of the offense, requesting DNA testing of crime scene evidence and forensic
examination of certain audio and video recordings. All requests were denied. Prior to
trial, appointed counsel, Anthony Ranken, proffered to the court that the defense would
call three witnesses to testify that the initial suspect in the case, James Hina Burkhart, had
confessed and bragged to committing the fatal stabbing of Cabaccang.
On February 24, 1997, prior to the commencement of trial, Anthony Ranken
produced to Petitioner a letter requiring Petitioner to give his signed authority to argue
self-defense and attempted theft to the charge of murder in the second degree. Petitioner
refused consent, insisting counsel argue his innocence which was supported by evidence
that Burkhart had confessed to his friends that he committed the murder. See (Appendix
B - Ranken’s Letter Requesting Petitioner’s Signed Consent). Because of Ranken’s pre­
trial admonitions, his refusal to withdraw, and his adamant insistence that Petitioner not
testify despite being a percipient witness—Petitioner produced a notarized hand-written

4

Case

PagelD
#:10848

‘Affidavit’ describing the events witnessed on the morning of July 14, 1995, and served
his Affidavit on both Ranken and the prosecutor at the onset of trial.
In his opening statement to the jury, Ranken indicated that Petitioner was
innocent and did not commit the murder, stating “that there was another man there”
whom the prosecutor had not mentioned—a man known to the decedent and his
girlfriend. See (Appendix C-l - Ranken’s Opening Statement). In the midst of trial, the
trial court held an in chambers hearing and ruled to exclude the testimony of the
witnesses that were proffered to testify that James Burkhart had confessed to the stabbing
of Cabaccang, and that Serena Seidel, [Cabaccang’s girlfriend] had furnished him with
the keys to Cabaccang’s vehicle. During the hearing while Burkhart asserted his Fifth
Amendment privilege, the State argued to the court that the confession witnesses were
“not reliable or trustworthy” because “no witnesses had identified Burkhart from any
photographic arrays” and “two witnesses” placed him within their residence at the time of
the crime. Petitioner’s request to testify as his own witness before the commencement of
closing arguments was denied by the trial court. Ranken, in siding with the prosecution
that Petitioner not be allowed to take the stand, argued to the trial court:
“I’ve informed him that we’re beyond that stage of the trial and advised
him not engage in any further outburst in front of the jury because I
believe it will only hurt his case...”
Then, in closing summation, over Petitioner’s expressed objection, Ranken
proceeded to argue to the jury that Petitioner, while under great duress had committed the
murder in “self-defense”, reversing the defense’s position which was paramount to him
changing Petitioner’s plea: See (Appendix C-2 - Ranken’s Closing Argument at pp. 40;
5

Case

°F%psl6%f>flM:1

PagelD

#: 10849

55; 56) (emphasis supplied). Ranken argued in part:
“... I'm going to explore with you what really happened that night...
But I have to admit to you 1 don 7 really know what happened... I’ve got
to move on, and you know if s-this is the hardest thing for a lawyer to do because
now you’re going to say well, Mr. Ranken, you are contradicting yourself. You
just told us that Taryn didn’t do it, and now you’re talking about well he did it, its
self-defense, whatever. There’s no way around it, ladies and gentlemen, I’m-]
don’t know what happened... So, yes, I’m going to assume now for the sake of
argument that Taryn was the one that inflicted these wounds despite everything I
said... Lets try to reconstruct how this fight happened... .Mr. Cabaccang tackles
Taryn. His shirt -Taryn’s shirt conies up enough to expose his belly or Vilmar
pushes the shirt up to get his knife hand under against Taryn’s flesh. Taryn’s lying
face down on the pavement...with this larger, heavier, stronger man on top of
him.. .pinning him down and cutting him with a knife.. .There was after that-after
Taryn felt the pain of his own blood being drawn, after he felt the knife against his
belly that he grabbed that knife only to again - / submit to you it was then that
Taryn, the terrified teenager, took his own knife out of its sheath to defend
himself... ”
None of this information was supported by any eyewitness or by Petitioner.
Petition had no cuts or wound(s) as Ranken described. Earlier, counsel represented that
he did not know what happened. Yet, he argued specific details not supported by any
evidence, providing a theory that was substantially similar to that of the prosecution, and
in effect, testified for the prosecution. (Refer at pp. 70-72; 74; 80-86) (emphasis added).
.. So then how did Vilmar get stabbed? The way Vilmar got stabbed is obviously
Taryn from that position, if Taryn was the one who did it, managed to get up his
knife without seeing what he was doing, just thrust blindly behind him and up
where Vilmar was sitting on him...And it looks like he was acting in self-defense,
never really realizing the harm that he was inflict-ing because he could not see the
harm he was inflicting. He did not know where that knife was landing... Blindly,
without being able to see, just stabbing behind his own back...He was tackled,
and that’s how he ended up face down. And there was a struggle, Vilmar was
getting the best of Taryn. Taryn had the knife, and Taryn defended himself ”
. .What was Taryn’s intent that night? .. .Taryn never intended to kill anyone.
Taryn never knowingly killed anyone.. .Taryn didn’t want this fight to happen.
He didn’t intend this fight to happen ...he didn ’(intendfor Vilmar to end up
dead. ”
6

Case

°

PagelD

#: 10850

As supported by the record, Ranken in his summation, profoundly separated
himself from his client when he stated to the jury, “I don’t really know what happened.”
This was undoubtedly against the best interests of his client, as counsel, prosecutor and
the court, were fully aware that Petitioner had requested the trial court grant him his
constitutional right to testify before closing argument. Ranken argued: (emphasis added).
“... Now, my client’s asked me, won’t the jury hold it against me if I
don’t testify? My client’s asked me, won’t they think I’m hiding something?
But when I’m handling a case this serious, I ask myself if I do put my client
on the stand, are you going to believe him anyway? Ifsomeone’s facing a
charge this serious, are you going to believe whatever he says, or are you
going to figure that he ’ll say whatever he needs to say to try get acquitted.
Ifigure there’s not much point in putting him on the stand. ”
After telling the jury that he didn’t really know what happened that night,
Ranken’s comments as to the irrelevance of his client’s testimony were profoundly
prejudicial and cannot be considered harmless error. His concession to the jury that while
Petitioner was pinned down under the weight of Cabaccang, he was just, “blindly,
without being able to see, just stabbing behind his own back ” does not demonstrate mere
negligence in the presentation of his client’s case or a “strategy” to gain a favorable result
that misfired. Instead, Ranken’s statements lessened the government’s burden of
persuading the jury that Petitioner was the person who stabbed Cabaccang. In yet another
instance of counsel’s concession to the jury that his client was the perpetrator he states:
“He’s never been in trouble.. .He’s facing shame of being caught for stealing...”
Again, when counsel made this claim to the jury, implying and confirming
for them that his client was a thief and had unlawfully entered Cabaccang’s vehicle, he
ceased to function as defense counsel. Counsel’s conduct cannot be considered a tactical
7

case i-.o£miomm§

#: 10851

pageiD

admission in order to persuade the jury to focus on a defense, such as the one of selfdefense. When counsel abandoned his duty of loyalty to his client and effecti vely joined
the state in their effort to attain a conviction, he suffered an obvious conflict of interest.
Thus, when Ranken failed to subject the prosecution’s case to meaningful adversarial
testing, there was a denial of Sixth Amendment rights that makes the adversary process
itself presumpti vely unreliable.
After Petitioner was convicted of second-degree murder, Ranken filed a motion
for new trial and a supplemental memorandum representing a reversal of his position
during summation. Ranken, in his pleadings, attempts to shift blame to the trial court in
an effort to mask counsel’s deplorable conduct during the trial. (Dkt. 1-2: Exhibit #47-F).
Ranken wrote at #1 and #2 as follows:
1. When Defendant Requested a New Attorney in the Middle of The Trial,
the Court Failed to Conduct the Required “Penetrating and Comprehensive
Examination” of the Defendant to Determine the Basis of His Request.
2. When Defendant Informed the Court Before Closing Arguments That He
Wished to Testify Before the Jury, the Court Should Have Reopened the
Evidentiary Portion of The Trial to Allow Defendant to Testify.
Attached to his Supplement for New Trial, in an ‘Affidavit of Anthony Ranken’
counsel wrote at #3: (Dkt. # 1-2: Exhibit # 52-A).
3. If allowed to testify, Defendant would have denied being the person who
stabbed Vilmar Cabaccang and would have told the jury about the presence
of a third man at the scene of the stabbing.
In his Affidavit, counsel concedes that his representation of Petitioner at trial
and his closing argument was inconsistent with what Petitioner would have testified
to under oath. The trial court denied Ranken’s Motion for New Trial and the Hawai’i
8

Case

n

Page ID

#: 10852

Supreme Court upheld Petitioner’s conviction.
B. Habeas Judgment.
On December 22, 2004, Petitioner filed a timely petition for a writ of habeas
corpus pursuant to 28 U.S.C. § 2254. On August 29, 2008, the Magistrate Judge, the
Honorable Leslie E. Kobayashi, issued her Findings and Recommendations to grant the
Petition in part and deny it in part. In deciding Petitioner’s Six Amendment claim on the
issue of trial counsel’s concession of guilt over Petitioner’s objection, the Magistrate
concluded that where the trial court had excluded the witnesses from testifying that
Burkhart had confessed to the killing, trial counsel’s “strategic decision” to argue selfdefense was “objectively reasonable”. (Dkt # 146: pp. 60-61). See (Appendix D - The
Magistrate Judge’s Findings and Recommendations to Grant in Part and Deny in Part
Petition for Writ of Habeas Corpus). The court wrote:
At the outset of trial, the defense’s strategy was to establish that Petitioner
did not kill Cabaccang. By the time of closing arguments, however, trial
counsel apparently altered the defense’s strategy and presented self-defense
and extreme emotional disturbance as alternative arguments. This Court finds
that, under the circumstances of the trial, this decision was within “the wide
range of professionally competent assistance.” See Strickland. 466 U.S. at 690.
As discussed, supra, Burkhart invoked the Fifth Amendment when called as a
defense witness and the trial court excluded the witnesses who would have
testified that Burkhart confessed to killing Cabaccang. These events certainly
hurt the defense’s ability to establish that another person, namely Burkhart,
killed Cabaccang. Trial counsel’s strategic decision to also argue self-defense
and extreme emotional disturbance was objectively reasonable under the
circumstances.
On September 30, 2008, the District Court entered its judgment and adopted
the Magistrate’s findings and recommendations regarding trial counsel’s concession of
guilt. (Dkt. #153 at p. 28). See (Appendix E - Habeas Order). The District Court wrote:
9

Case l:O^WW

PagelD
#: 10853

.. This Court also finds on a de novo review that a change of the theory
of defense did not fall below an objective standard of reasonableness. As
the main theory of defense that Burkhart committed the killing was not
supported by strong evidence, it was within the wide range of competence
and trial strategy to argue that in the event the jury believed the prosecution,
it should consider that the stabbing was in self-defense...
Petitioner was denied a COA on his Sixth Amendment claim by the Ninth Circuit
Court of Appeals, foreclosing appellate review and the opportunity to seek certiorari
review in the United States Supreme Court.
On May 14, 2018, the U.S. Supreme Court entered its landmark decision in
McCoy v. Louisiana. 584 U.S.

(2018), establishing governing precedent of the

specific facts and circumstances found in Petitioner’s trial that was incorrectly decided by
the District Court during Petitioner’s §2254 proceeding. See (Appendix A - The Supreme
Court’s Decision in McCoy v. Louisiana).
Petitioner’s instant Independent Action in Equity pursuant to Fed. R. Civ. P.
60(d)(1), demonstrating a ‘grave miscarriage of justice’ and exceptional circumstances is
properly before the District Court.

10

Case

"1(®4/§@J[yght14^04|8^(fri^/^ ^f^&PZ&dPkW

PagelD

#: 10854

ARGUMENT
I.

IN LIGHT OF SUPREME COURT PRECEDENT IN MCCOY V.
LOUISIANA. WHICH GOVERNS PETITIONER’S SIXTH AMENDMENT
CLAIM—PETITIONER S RULE 60(d)(1) INDEPENDENT ACTION TO
ADDRESS A ‘GRAVE MISCARRIAGE OF JUSTICE’ IS PROPERLY
BEFORE THE DISTRICT COURT.
The Supreme Court’s May 2018 decision in McCoy v. Louisiana. 584 U.S.

(2018), has been hailed as a decisive statement of the priority of the value of a criminal
defendant’s autonomy over the fairness and reliability interests that also inform both the
Sixth Amendment and the ethical obligations of defense counsel
In its decision, the Supreme Court affirmed when a defendant expressly asserts
that the objective of “his defence” is to maintain innocence of the charged criminal acts,
“his lawyer must abide by that objective and may not override it by conceding guilt.”
U.S. Const., Arndt. 6 (emphasis added); see ABA Model Rule of Professional Conduct
1.2(a) (2016) (a “lawyer shall abide by a client’s decisions concerning the objectives of
the representation”). “Presented with express statements of the client’s will to maintain
innocence ... counsel may not steer the ship the other way”. See Gonzalez. 553 U. S., at
254 (Scalia, J., concurring in judgment) (“[AJction taken by counsel over his client’s
objection... ha[s] the effect of revoking [counsel’s] agency with respect to the action in
question.”).
Robert McCoy was charged with the murder of three of his family members in
Bossier City, Louisiana. The state brought capital charges against him, but McCoy
maintained his innocence—claiming he was not even in the state at the time of the
murders—and demanded a jury trial. But in light of the evidence against him, McCoy’s
11

Case l-.0£<m)0Wm8§

#: 10855

°F^pe^^ttM1 PagelD

lawyer thought the best trial strategy would be to admit guilt to the jury and hope for
leniency in sentencing. McCoy adamantly opposed this plan, but his lawyer pursued it
anyway and told the jury that McCoy was guilty. The jury returned three murder
convictions and sentenced McCoy to death.
The Supreme Court reversed the decision of the Louisiana Supreme Court—
finding that it was incompatible with the Sixth Amendment and because the error was
‘structural’ in kind, a new trial was required. The majority opinion by the Honorable
Justice Ginsburg accords with the principle of defendant autonomy, and the long-standing
maxim that the Sixth Amendment guarantees the right to a personal defense.
While a defendant is, of course, guaranteed the “Assistance of Counsel,” the
defendant himself remains master of the defense and is entitled to make fundamental
decisions in his own case. The precept of the right of a defendant to serve as the master of
his own defense finds resonance in the Sixth Amendment, which grants the right to put
on a defense directly and personally to the accused—not to his lawyer and not to the
state. Faretta. 422 U.S. at 819. A defendant who accepts the assistance of counsel does
not forfeit the right to be the master of his defense. See Faretta. 422 U.S. at 819-21; see
also United States v. Teague. 953 F.2d 1525, 1533 (11th Cir. 1992) (“[Wjhile defense
counsel serves as an advocate for the client, it is the client who is the master of his or her
own defense. The Sixth Amendment “speaks of the ‘assistance’ of counsel, and an
assistant, however expert, is still an assistant.” Faretta. 422 U.S. at 820.
The heart of the Supreme Court’s analysis emphasized that defendant autonomynot ineffective assistance of counsel—was the proper lens through which to view the
12

Case liOto'oWM

■°f,3§0®!§3tf!lM1 PagelD
#: 10856

case. The McCoy Court addressed that the issue is not whether such a strategy is
reasonable; it is whether a competent defendant, fully informed of his situation, may
decide for himself whether to maintain his innocence and demand the state prove his guilt
beyond a reasonable doubt. The Court observed that autonomy to decide whether to
concede guilt is a fundamental component of the client’s right to set the objectives of a
representation; it is not a mere question of tactics best left to the lawyer’s expertise.
“These are not strategic choices about how best to achieve a client’s objectives: they are
choices about what the client’s objectives in fact are” Weaver v. Massachusetts. 582
U.S.__, (2017) (slip op., at 6) (2017) (self-representation will often increase the
likelihood of an unfavorable outcome but “is based on the fundamental legal principle
that a defendant must be allowed to make his own choices about the proper way to
protect his own liberty”); Martinez v. Court of Appeal of Cal.. Fourth Appellate Dist.,
528 U. S. 152, 165 (2000) (Scalia, J., concurring in judgment) (“Our system of laws
generally presumes that the criminal defendant, after being fully informed, knows his
own best interests and does not need them dictated by the State.”).
The Court discussed that because a client’s autonomy, not counsel’s competence,
is in issue, the Court does not apply the ineffective-assistance-of-counsel jurisprudence
discussed in Strickland v. Washington. 466 U.S 668 (1984), or United States v. Cronic.
466 U.S. 648 (1984), to the claim.” The Court explained that to gain redress for attorney
error, a defendant ordinarily must show prejudice. See Strickland. 466 U. S., at 692.
“Here, however, the violation of McCoy’s protected autonomy right was complete when
the court allowed counsel to usurp control of an issue within McCoy’s sole prerogative.”
13

Case 1:0^)0WW "PagelD
#: 10857

Id. This principle of autonomy has received the most judicial attention in the context of
self-representation, but also finds expression in the defendant’s right to choice of counsel,
see United States v. Gonzalez-Lopez. 548 U.S. 140 (2006), and in a defendant’s “ultimate
authority to make certain fundamental decisions regarding the case,” Jones v. Barnes, 463
U.S. 745, 751 (1983), even when represented by counsel.
There is nothing in the common law history of counsel-client relations before the
adoption of the Bill of Rights to suggest that such assistance empowered the advocate to
ignore or override the client’s manifest instruction as to his plea and defense.
A. An Independent Action Pursuant to Rule 60(d)(1) Codifies Legal
Grounds and Procedures to Relieve a Party of the Final Judgment
to Address a “Grave Miscarriage of Justice.”
Rule 60 of the Federal Rules of Civil Procedure, entitled “Relief from a Judgment
or Order,” provides that judgments, while ordinarily accorded a degree of finality, are
subject to being set aside when appropriate, whether for ministerial reasons at one end of
the spectrum or for fraud at the other. Fed. R. Civ. P. 60. Pursuant to Fed. R. Civ. P.
60(d)(1); “[T]he reference to ‘independent action’ in the saving clause is to what had
been historically known simply as an independent action in equity to obtain relief from a
judgment.” Barrett, 840 F.2d at 1262-63 (quoting 11 C. Wright & A. Miller, Federal
Practice & Procedure § 2868, at 237-38 (1973)). The rule therefore “does not limit a
court’s power to . . . entertain” such an action regardless of the passage of time. Fed R.
Civ. P. 60(d), (d)(1). Thus, an independent action may be dismissed if filed within one
year, when other Rule 60(b) remedies are available. See Moore’s, supra note 7, at §60.82
[3], An independent action is appropriate only where there is no adequate remedy at law.
14

Case 1:0^»OWW ~°
#:10858

PagelD

See, Bankers Mortg. Co. v. United States. 423 F. 2d 73, 79 (5th Cir. 1970).
The Supreme Court addressed the topic of Rule 60 independent actions in United
States v. Beggerlv. 524 U.S. 38, 118 S.Ct. 1862, 141 L,Ed.2d 32 (1998), accord Pickford
v. Talbott. 225 U.S. 651,657, 32 S.Ct. 687, 56 L.Ed. 1240 (1912) (available when
enforcement of the j udgment is “manifestly unconscionable”). In that case, the Beggerly
family entered into a settlement with the United States Government quieting title to
disputed land in favor of the latter in return for a sizeable payment. 524 U.S. at 39. The
family filed an independent action in federal court several years later to set aside the
settlement, citing new evidence. See id. at 39, 40—41. In denying relief, the Supreme
Court explained the family's allegation that the government withheld information during
the original action would have, at most, “formfed] the basis for a Rule 60(b)(3) motion,”
id. at 46, and “it should [have been] obvious that [the family's] allegations d[id] not
nearly approach th[e] demanding” “grave miscarriage of justice” standard. Id. at 47.
The Beggerlv Court was very specific as to the issues it addressed and those it did
not address. In a concurring opinion, Justice Stevens and Justice Souter explained:
.. .We are not confronted with the question whether a doctrine such as fraudulent
concealment or equitable estoppel might apply if the Government were guilty of
outrageous misconduct that prevented the plaintiff, though fully aware of the
Government's claim of title, from knowing of her own claim. Those doctrines are
distinct from equitable tolling, see 4 C. Wright & A. Miller, Federal Practice and
Procedure §1056 (Supp.1998); cf. United States v. Locke. 471 U. S. 84, 94, n. 10
(1985) (referring separately to estoppel and equitable tolling), and conceivably
might apply in such an unlikely hypothetical situation. The Court need not (and,
therefore, properly does not) address that quite different type of case.
The Supreme Court summed up the standard by stating that “an independent
action should be available only to prevent a grave miscarriage ofjustice. ” Id, at 47.
15

Case

^@4/g8JgfT|^t14d^04ft^ggi^/j?' ° f%p£2^%PtlM1
#: 10859

PagelD

(emphasis added). The Court held that only a plausible claim alleging an injustice
“sufficiently gross” to merit departing from the strict doctrine of res j udicata will compel
relief in such cases. Beggerlv. 524 U.S. at 46. In other words, the injustice must be so
severe that enforcement of the original judgment would be “manifestly unconscionable.”
Mitchell. 651 F.3dat 599 (citing Pickford v. Talbott. 225 U.S. 651,657 (1912)). See,
Barrett. 840 F.2d. at 1263 (“Relief pursuant to the independent action is available only in
cases ‘of unusual and exceptional circumstances.’” (quoting Rader v. Clibum. 476 F.2d
182, 184 (6th Cir. 1973)). In Solomon v. DeKalb County. Georgia, the Eleventh Circuit
again addressed Rule 60 independent actions. 154 Fed. Appx. 92 (11th Cir. 2005). The
court observed that the Rule 60 independent action gives the court “the power to set aside
a judgment whose integrity is lacking...” The court further stated: Relief under this
clause... is an extraordinary remedy which may be invoked only upon a showing of
exceptional circumstances. The party seeking relief has the burden of showing that absent
such relief, an ‘extreme’ and ‘unexpected hardship will result.” Id. (quoting Griffin v.
Swim-Tech Coro.. 722 F.2d 677, 680 (11th Cir. 1984).
Second, a petitioner may seek equitable relief under Rule 60(d)(1) where manifest
error is shown to have caused “some defect in the integrity of the federal habeas
proceedings. ” Gonzalez. 545 U.S.

, 125 S.Ct. at 2648 (emphasis supplied). This

mirrors the Sixth Circuit’s holding in In Re Abdur’Raman. 392 F.3d 174 (6th Cir. 2004)
(en banc), which specifically held that a motion for equitable relief is permissible if the
motion contains arguments which show “reason to doubt the integrity of a habeas
judgment.” Id. at 180. Such a motion is proper if it “attacks the manner in which the
16

Case l:04¥t)W«§

'>&^%7d?fLW

PagelD

#: 10860

earlier habeas judgment was procured.” Id. At 177. While a petitioner invoking Rule
60(d)(1) may seek relief from judgment in accordance with Gonzalez, a petitioner may
also seek relief proceeding directly under Article III of the Constitution, which confers
upon a District Court inherent equitable powers over its own judgment.
(i) The ‘Miscarriage of Justice’ Standard Defined.
In 1927, Justice Dundedin of the Privy Council (whom the British, in accordance
with their parochial tradition, called " Viscount Dunedin") wrote in Robins'.
“... miscarriage ofjustice ... means such departure from the rules which
permeate all judicial procedure as to make that which happened not in the
proper use of the word judicial procedure at all.”
In Faniov v. R.. (1985): Justice McIntyre of Canada's Supreme Court wrote:
"A person charged with the commission of a crime is entitled to a fair trial
according to law. Any error which occurs at trial that deprives the accused
of that entitlement is a miscarriage ofjustice. It is not every error which will
result in a miscarriage ofjustice, the very existence of the proviso to relieve
against errors of law which do not cause a miscarriage of justice recognizes
that fact."
In Lin v Tang. 147 D.L.R. (4th) 577 (1997): Justice Huddard of the British
Columbia Court of Appeal opined.
"Miscarriage of justice is a difficult concept. It is not simply unfairness as viewed
by the party who perceives himself the victim of an unfair process.... In my view,
miscarriage of justice means that which is not justice according to law. A
miscarriage of justice will almost always be procedural. The blemish must be
such as to make the judicial procedure at issue not a judicial procedure at all."
In R. v. Duke. 6 W.W.R. 386, 22 C.C.C. (3d) (1985), Justice McClung: Alberta
Court of Appeal wrote, in reference to an appeal and the Canadian Criminal Code:
"... the determination of whether a miscarriage ofjustice has occurred rests
on broader considerations than those attaching to the demonstration of
17

Case 1:O^OWW

PagelD
#: 10861

a substantial wrong. Proof of actual prejudice resulting from an error of law
is not requisite to a finding that a miscarriage ofjustice has occurred. It may
be enough that an appearance of unfairness exists."
West's Encyclopedia of American Law, edition 2:
“A miscarriage of justice arises when the decision of a court is inconsistent
with the substantive rights of a party.”
Ballentine’s Law Dictionary:
A decision inconsistent with substantial justice. Kotteakos v United States.
328 US 750, 90 L Ed 1557, 66 S Ct 1239. The result of a case in which
essential rights of a party were disregarded or denied. People v Musumeci.
133Cal App2d 354, 284 P2d 168.
B. Petitioner’s Independent Action Satisfies the Equitable Requirements
For Relief.
To obtain relief from a judgment through an independent action, parties must
establish equitable requirements. The independent action prerequisites are often stated as
follows: (1) a judgment which ought not, in equity and good conscience, be enforced; (2)
a good defense to the alleged cause of action on which the judgment is founded; (3)
fraud, accident, or mistake which prevented the defendant in the judgment from obtaining
the benefit of his defense; (4) the absence of fault or negligence on the part of defendant;
and (5) the absence of any remedy at law.
(i)

Petitioner Satisfies McCoy’s Core Requirement Where His Trial
Counsel Conceded Guilt Over His Express Objection.

Petitioner, like McCoy, repeatedly and unequivocally instructed his attorney to
pursue an innocence-based defense at trial, an instruction that counsel deliberately
disregarded. By doing so, Ranken’s pursuit of a defense strategy fundamentally
incompatible with that selected by his client, resulted in a constructive denial of counsel
18

Case 1:O^0O^W

PagelD
#: 10862

and a divided defense. But when the defense is divided, the defendant’s own attorney, not
the prosecutor, becomes his chief adversary. See United States v. Williamson. 53 F.3d
1500, 1511 (10th Cir. 1995) (“admission by counsel of his client’s guilt to the jury” is a
“paradigmatic example of the sort of breakdown in the adversarial process that triggers a
presumption of prejudice”).
In accord with Supreme Court precedent in McCoy v. Louisiana. Petitioner has
satisfied that he was denied his protected constitutional right of autonomy to serve as the
master of his own defense—a Sixth Amendment ‘structural’ violation that was not
recognized or correctly decided by the federal habeas court, resulting in a §2254
judgment, which ought not, in equity and good conscience, be enforced.
(ii)

The District Court Egregiously Misunderstood the Constitutional
Significance of Petitioner’s Right of Autonomy to Assert An
Innocence-Based Defense at Trial and the ‘Structural’ Error
That Resulted From its Violation.

In denying habeas relief, the District Court clearly misunderstood the
Constitutional significance of Petitioner’s protected rights under the Sixth Amendment.
Although a lawyer may make tactical decisions concerning the means used to pursue his
client’s objectives, the decision over whether to assert innocence at trial rests with the
defendant. It has long been recognized that where a criminal defendant exercises his
constitutional right to plead “not guilty,” as Petitioner did, his lawyer has an obligation to
“structure the trial of the case around his client’s plea.” Wiley v. Sowders, 647 F.2d 642,
560 (6th Cir. 1981). This Mr. Ranken clearly failed to do.
When a lawyer admits his client’s guilt and relieves the prosecution of its burden

19

Case 1:04^0WW§

°F$§8e33Qtf>!lM1

PagelD

#:10863

of proof over the client’s express objection, the defendant suffers a structural error that is
“so intrinsically harmful as to require automatic reversal (i.e., ‘affect substantial rights’)
without regard to [its] effect on the outcome.” Neder v. United States. 527 U.S. 1, 7
(1999) (quoting Fed. R. Crim. P. 52(a)). That is because the “constitutional deprivation”
is not “simply an error in the trial process,” but “affect[s] the framework within which the
trial proceeds.” Arizona v, Fulminante. 499 U.S. 279, 310 (1991) (quoting Rose v. Clark.
478 U.S. 570, 577-578 (1986)).
The District Court failed to recognize this long established and most fundamental
tradition that under no circumstances, may counsel ignore the instructions and concede
guilt. Where counsel refuses to withdraw and remaines on the case, he may never go
against the client’s instruction to present a defense of not guilty. This balance of power is
reflected both in case law and professional conduct regulations.
(iii) Petitioner’s Independent Action is Proper in the Absence of Any
Other Remedy at Law to Afford the District Court to Correct Error.
In light of the Supreme Court’s decision in McCoy v. Louisiana, which controls
the specific circumstances of Petitioner’s case, an ‘independent action’ in equity is proper
in the absence of any other remedy at law to afford the District Court the opportunity to
correct clear error in the face of a grave miscarriage of justice.
(iv) Extraordinary Circumstances Warranting Equitable Relief Exist
Where Petitioner Received an Erroneous/ Inconsistent Application
of the Law by the Federal Court.
The federal courts have repeatedly concluded that when a party to federal
litigation receives an inconsistent application of the law which deprives him of a right

20

Case 1:0^'0^W

PagelD
#: 10864

accorded to other similarly situated parties, “extraordinary circumstances” exist which
warrant post-judgment relief. See e.g., Gondeck v. Pan American World Airways. 382
U.S. 25, 27 (1965)(granting post-judgment relief on rehearing to prevent inconsistent
application of the law); Pierce v. Cook & Co.. 518 F.2d 720 (10th Cir. 1975)(en banc)
(granting 60(b) relief after finding extraordinary circumstances where, as a result of
erroneous application of law by federal court, litigant received different treatment from
similarly situated party); Cincinnati Insurance Co. v. Byers. 151 F.3d 574 (6th Cir. 1998)
(extraordinary circumstances existed where there was intervening change in the law);
Overbee v. Van Waters. 765 F.2d 578 (6th Cir. 1985)(finding extraordinary circum­
stances and granting relief from judgment based on intervening decision of Ohio
Supreme Court); Jackson v. Sok. 65 Fed.Appx. 46 (6th Cir. 2003) (per curiam),
(upholding grant of 60(b) relief based on intervening state supreme court decisions).
Rare is the case where the district court’s errors are so grave as to “seriously
impair[] the fairness, integrity, or public reputation of judicial proceedings.” C.B., 769
F.3d at 1019 (quoting Diaz-Fonseca. 451 F.3d at 36). In law, almost invariably applied to
the act, fault, or omission of a court, as distinguished from that of an individual. See
Flolton v. Olcott, 58 N. H. 598; Fraud is always the result of contrivance and deception;
injustice may be done by the negligence, mistake, or omission of the court itself. Silvev
V- U- S., 7 Ct Cl. 324. In re Moulton. 50 N. H. 532. “Fraud” is deception practiced by the
party; “injustice” is the fault or error of the court.
The Supreme Court’s decision in McCoy confirms that manifest “injustice” has
resulted here, from fault or error of the federal court and the Court of Appeals’ failure to
21

Case

page|D

#: 10865

recognize the ethical obligations of Counsel under the Sixth Amendment.
II.

PURSUANT TO MCCOY’S PRECEDENT—THE DISTRICT COURT
HAS A FUNDAMENTAL INTEREST AND A DUTY TO SEE THAT
JUSTICE IS DONE IN PETITIONER’S CASE—WARRANTING THE
REOPENING OF PETITIONER’S HABEAS ACTION TO RECTIFY
A GRAVE MISCARRIAGE OF JUSTICE.
In denying Petitioner’s Sixth Amendment claim, the District Court applied a very

narrow reading of Strickland to justify Ranken’s complete reversal of Petitioner’s defense
in his closing summation. The Court maintained that counsel’s conduct was “reasonable”
on the grounds the State had argued there was insufficient corroborating evidence to
bringing in the Burkhart confession testimony before the jury. The District Court’s
framing elides the fundamental interest at issue. Nothing in Strickland—or anywhere
else—suggests that a lawyer may admit his client’s guilt against his consent.
It is well established law that defense counsel may not override the defendant’s
decision and thereby try “his case against his client.” Anders v. California. 386 U.S. 738,
745 (1967). If he does so, he is no longer acting as the client’s agent, and the defense is
“stripped of the personal character upon which the [Sixth] Amendment insists.” Faretta.
422 U.S. at 820. “[T]he dignity and autonomy of the accused” turn on his right to make
these deeply personal decisions. McKaskle. 465 U.S. at 177.
The District Court demonstrably erred in concluding that Ranken’s admission of
guilt was “reasonable” defense strategy which predictably resulted in a divided defense
before the jury. When the defense is divided, the defendant’s own attorney, not the
prosecutor, becomes his chief adversary. See United States v. Williamson. 53 F.3d 1500,
1511 (10th Cir. 1995) (“admission by counsel of his client’s guilt to the jury” is a
22

Case 1:

F%p^33#l£!1

PagelD

#: 10866

“paradigmatic example of the sort of breakdown in the adversarial process that triggers a
presumption of prejudice"). Ranken’s actions completely undermined Petitioner’s stated
objective for the representation and denied his right to present a defense.
The constitutional right against self-incrimination would be hollow if the accused
had no right to prevent his incrimination by his own counsel. Here, Ranken conducted
himself more as a prosecutor than as Petitioner’s advocate. The result was not merely a
“breakdown in the adversarial process,” Cronic. 466 U.S. at 662, but the evisceration of
each of those “particular guarantee^] of fairness” the Constitution deems essential to a
fair trial, Gonzalez-Lopez. 548 U.S. at 146. For a lawyer to override his client’s wishes
on such a matter is to “den[y] [him] the right to conduct his defense.” State v Carter. 14
P.3d 1138, 1148 (Kan. 2000). Moreover, a lawyer who concedes his client’s guilt against
his will violates the spirit, if not the letter, of Rule 1.2(a), which provides that a “lawyer
shall abide by his client’s decision ... as to a plea to be entered.” See Hawaii Rules of
Prof 1 Conduct, r. 1.2(a); see also Carter. 14 P.3d 1138 at 1148 (finding that defense
counsel’s decision to concede guilt at trial over his client’s objection “was [] equivalent
to entering a plea of guilty” without his client’s consent).
Ranken had no ethical duty or authority to override Petitioner’s decision to put the
prosecution to its burden of proof rather than admit guilt. To the contrary, applicable
ethics rules and standards of professional conduct require defense counsel to follow the
client’s direction as to whether to admit guilt or not, consistent with the Constitution’s
recognition that the decision to admit guilt is the defendant’s—not the lawyer’s—to
make.
23

Case l:0^t)WW§

PagelD
#: 10867

A.

.

In All Common Law Jurisdictions Counsel May Not Concede Guilt
Against Instructions from the Client.

Long settled precedent forbids counsel from conceding guilt and abandoning his
client’s defense—such is the law in the United States. The same law and practice is
adhered to by all common law jurisdictions of the world which include: England and
Wales; Australia and New-Zealand; Scotland and Ireland; Canada, the Caribbean; the
West Indies; South Africa and Kenya. The common law tradition, developed over
centuries across the English-speaking world, mandates that if the client gives clear
instruction that his defense is to be “not guilty”, defense counsel is required to honor that
instruction and is forbidden to argue his client is guilty.
In England and Wales, statements of guilt must be made in person by the accused
and, in the case of submissions, by counsel in accordance with the client’s wishes. R. v.
Ellis. (1973) 57 Cr. App. R. 571 (Eng.). Barristers must not put forward any case
inconsistent with their client’s instructions. In R. v. Clinton (1993) 1 W.L.R. 1181 (1993)
2 All E.R. 998 (Eng ), the Court of Appeal considered the question of departure from
instructions: (“Conversely.... where a decision was taken “either in defiance of or
without proper instructions,” the situation is reversed. Then, the conviction is unsafe. Id.
at 1187-88 ”)
In Australia, long settled precedent forbids counsel from conceding guilt and
abandoning his [client’s] defense. See Tuckiar v. The King. (1934) HCA 49, (1934) 52
CLR 335, (Austl.). The Australian rule is well stated in the textbook by Dal Pont,
Lawyers’ Professional Responsibility 604 (5th ed. 2012).

24

Case 1:0^'0W«§ ■c^§4/g8J8rri&it14ld^40418^t&^/]^
#: 10868

PagelD

Having accepted a brief, a defence lawyer is duty bound to defend the
accused irrespective of any belief or opinion he or she may have formed
as to the accused’s guilt or innocence. Assessment of guilt or innocence
is for the court, not counsel. In the well-known words of Bramwell, B:
“A client is entitled to say to his counsel, ‘I want your advocacy and not
your judgment; I prefer that of the court.’”
In New Zealand, defense counsel is not entitled to disregard the instructions of the
defendant with respect to the nature of the defense. R. v. McLoughlin [1985] 1 NZLR
106 (CA). In New Zealand, departure from a client’s instructed plea is also a violation of
the rules of professional conduct. The practice is the same in Scotland. It is for the
accused to decide whether he wishes to plead guilty and defense counsel, referred to as an
advocate, must follow the client’s instructions regarding the defense. The courts there
have confirmed that when an advocate advances a defense against the client’s clear
instructions, the conviction must be reversed. Anderson v. H. M. Advocate. (1996) J.C.
39 (Scot.). In Ireland, the duty of counsel to adhere to the defendant’s choice of defense
is found in the canons of ethics. The ethical duties of the barrister provide that it will be a
breach to concede the guilt of a client who maintains their innocence. “Where the client
maintains innocence, defence lawyers are obliged to attempt to expose weaknesses in the
prosecution case.” Section 10.14 of the Code of Conduct for the Bar of Ireland.
In Canada, the accused has the autonomy to determine the fundamental objectives
of the defense, as well as the decision of how to plead, and counsel is obligated to follow
the client’s instructions. R. v. Szostak, (2012), 111 O R. 3d 241 (Can. Ont. C.A.). In
Canada, departure from a client’s instructed plea is a violation of the rules of professional
conduct. As the court held in R. v. G.D.B.. (2000) 15 C.R. 520 (Can.) “there are decisions

25

Case 1:O^0OWW

PagelD
#: 10869

such as whether or not to plead guilty, or whether or not to testify that defence counsel
are ethically bound to discuss with the client and regarding which they must obtain
instructions.” Id. at 533.
In South Africa, counsel must follow the client’s instructions and cannot make
fatal concessions that harm his client’s defense. In S v. Mofokeng 2004 (1) SACR 349
(W), Louw AJ said:
Counsel also is not the judge. He does not have, nor should he have, the
distance to adjudicate on the strength and weaknesses of his client’s cause.
He must, of course, advise his client on the probable findings of the court
but he must fearlessly argue his client’s case even if he, himself, does not
believe that the case is right or just. Whilst he is an officer of the court, he
is a representative of a litigant and he does not have the luxury to distance
himself from his client’s instructions and to condemn his client by making
fatal concessions. In the final analysis, he is but a representative of his client,
a mandatory. It is his duty to carry out his mandate and to take all reasonable
steps to accomplish his aim. He must perform his obligations in accordance
with the terms and limitations of his mandate. If he does not do so, he is no
representative.
* * *

[Wjithin the four comers of the ethics which bind each defence advocate,
counsel is not free to make submissions designed to destroy his client’s case,
or which may have that effect. He is, of course, in control of the presentation
of the defence case... and he may otherwise bind his client through “vicarious
admissions”... but where he, to the knowledge of the court, refutes his
instructions, he fails to act as a representative.
Id. at

at 35g-i, 357f-g (emphasis supplied).

In his commentary on South African law, Etienne du Toil, et ah, Commentary on
the Criminal Procedure Act

11-42E (1987), Etienne du Toit writes that:

“Grave incompetence, resulting in a fatal irregularity, is present where
a legal representative ... does not establish the defence of his client...”
Thus, South African law goes further than the rule sought by Petitioner. In S. v.

26

Case l:o£@ea00W£JB»g

pageiD
#: 10870

Mafu and Others, 2008 (2) ALL SA 657 (W) (S.Afr.) at ^15, for example, counsel’s
failure to put an affirmative alibi defense was held to breach “the very rudimentary duties
of counsel when defending an accused.” An authoritative treatise on Caribbean practice
emphasizes “the necessity on the part of defence counsel to take written instructions and
to act on those instructions. If counsel finds that he cannot do so, he must so indicate and
seek leave to withdraw from the defence.” Seetahal, Commonwealth Caribbean:
Criminal Practice and Procedure 230.
In Kenya, a Kenyan advocate must follow the client’s legal instructions in accord
with the Code of Ethics and Conduct for Advocates.
The Supreme Court’s precedent in McCoy confirms that both the District Court’s
2008 judgment and the Court of Appeals refusal to grant a COA on this constitutional
ground were wrongly decided. In these circumstances, Petitioner has been erroneously
left without a proper adjudication of the merits of his Sixth Amendment claim due to an
extraordinary confluence of errors of law.
III.

EXCEPTIONAL CIRCUMSTANCES ARE DEMONSTRATED WHERE
JUSTICES OF THE SUPREME COURT OPINED THE DESCRIBED
SIXTH AMENDMENT VIOLATION AS “RARE” AND “UNLIKELY
TO RECUR”.
The extraordinary and exceptional nature of this case is confirmed by the Supreme

Court Justices in their dissenting opinion in McCoy. The Honorable, Justice Alito, joined
by Justice Thomas and Justice Gorsuch, described the conflict between McCoy and his
lawyer as “rare” and “unlikely to recur.” Post, at 2, 5-7, and n. 2. The dissent concluded,
that “a criminal defendant’s right to insist that his attorney contest his guilt with respect

27

Case l:0£e^0WWi>

'?ffi^3§%f,tM1

PagelD

#: 10871

to all charged offenses—is like a rare plant that blooms every decade or so. Having made
its first appearance today, the right is unlikely to figure in another case for many years to
come.” The Justices went on to reason, “... if counsel is appointed, and unreasonably
insists on admitting guilt over the defendant’s objection, a capable trial judge will almost
certainly grant a timely request to appoint substitute counsel. And if such a request is
denied, the ruling may be vulnerable on appeal.” Id
Here, Petitioner’s Sixth Amendment violation, “rare” as it may be according to the
Justices of the Supreme Court, has yet to be properly adjudicated and corrected under
well-established principles of law and common law tradition developed over centuries
across the English-speaking world—thus, demonstrating exceptional circumstances.
CONCLUSION
In conclusion, neither Taryn Christian, the State of Hawaii, nor the federal courts
have any legitimate interest in enforcing a federal judgment allowing a “structural” error
of a Sixth Amendment violation to stand, when that federal judgment is patently in error,
and no one can deny otherwise. The District Court has a fundamental interest and duty to
see that justice is done in this case, warranting the re-opening of the habeas action for the
Court to rectify its error in judgment which was foreclosed from appellate review.
Respectfully submitted,
/s/ Gary A. Modafferi
GARY A. MODAFFERI, ESQ.

28

Case

'^p'a^S^tLM1

PagelD

#: 10872

CERTIFICATE OF SERVICE
I hereby certify that on this 19th day of October, 2018, the forgoing Independent
Action and Appendices was filed with the Clerk of the Court for the U.S. District Court
for the District of Hawaii, to be served by operation of the Court’s electronic filing
system upon the following:
John D. Kim
Prosecuting Attorney
County of Maui.
Counsel for Respondent
Theodore I. Sakai
Director State of Hawaii
Department of Public Safety
Patrick K. Wong 5878
Corporation Counsel
Moana M. Lutev 6385
Deputy Corporation Counsel
County of Maui
200 S. High Street
Wailuku, Hawaii 96793
Phone: (808) 270-7741
E-mail: moana.lutey@co.maui.hi.us

/s/ Erika W. Magana
Erika W. Magana
An Employee of the Law Office of
Gary A. Modaferri.

29

Case l:0^i0Wf

PagelD
#: 10873

GARY A. MODAFFERI, ESQ.
Hawaii Bar No. 3379
Nevada Bar No. 12450
Law Office of Gary A. Modafferi LLC
815 S, Casino Center Boulevard
Las Vegas, Nevada. 89101
Telephone: (702) 474-4222
modafiferilaw@gmail.com
Attorney for Petitioner
TARYN CHRISTIAN
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
TARYN CHRISTIAN
CIV. NO. 04-00743 DAE-KSC
Petitioner
vs.
CLAYTON FRANK,
Respondent.
PETITIONER’S INDEPENDENT ACTION UNDER FEDERAL RULE 60(d)(1)
PURSUANT TO INTERVENING SUPREME COURT PRECEDENT
IN MCCOY V. LOUISIANNA. (2018)

PETITIONER’S APPENDICES “A” - “E"

Case

#: 10874

°f%$m4^dPh^

LIST OF APPENDICES
APPENDIX “A” -

The Supreme Court’s Decision in
McCoy v. Louisiana. 584 U.S.
(2018).

APPENDIX “B” -

Attorney, Anthony Ranken’s Letter Requesting
Petitioner’s Signed Consent to Concede Guilt and
Argue Self Defense:

APPENDIX “C-l” -

Anthony Ranken’s Opening Statement:

APPENDIX “C-2” -

Anthony Ranken’s Closing Argument:

APPENDIX “D” -

Excerpt of (Doc. 146) at Pages 58-62:
Magistrate Judge’s [Hon. Leslie E. Kobayashi]
Findings and Recommendations to Grant in Part, and
Deny in Part, Petition for Writ of Habeas Corpus:

APPENDIX “E” -

Excerpt of (Doc. 153) at Pages 28-29:
The District Court’s Habeas Order:

PagelD

Case

^(04/g8i8Fr1gVit14d^O4f3il^l<t&^/]0 n
#: 10875

(Slip Opinion)

OCTOBER TERM, 2017

PagelD

1

Syllabus
NOTE: Where it is feasible, a syllabus (headnato) will be released, as is
being done in connection with this case, at the time the opinion is issued.
The syllabus constitutes no part of the opinion of the Court hut has been
prepared by the Reporter of Decisions for the convenience of the reader.
See United States v. Detroit Timber & Lumber Cb„ 200 U. S. 821,837.

SUPREME COURT OF THE UNITED STATES
Syllabus

MCCOY v. LOUISIANA
CERTIORARI TO THE SUPREME COURT OF LOUISIANA
No. 16-8265. Argued January 17, 2018—Decided May 14, 2018
Petitioner Robert McCoy was charged with murdering his estranged
wife’s mother, stepfather, and boil McCoy pleaded not guilty to firstdegree murder, insisting that he was out of State at the time of the
killings and that corrupt police killed the victims when a drug deal
went wrong. Although he vociferously insisted on his innocence and
adamantly objected to any admission of guilt, the trial court permit­
ted his counsel, Larry English, to tell the jury, during the trial’s guilt
phase, McCoy “committed [the] three murders.” English’s strategy
was to concede that McCoy committed the murders, hut argue that
McCoy’s mental state prevented him from forming the specific intent
necessary for a first-degree murder conviction. Over McCoy’s repeat­
ed objection, English told the jury McCoy was the killer and that
English “took [the] burden off of [the prosecutor]” on that issue.
McCoy testified in his own defense, maintaining his innocence and
pressing an alibi difficult to fathom. The jury found him guilty of all
three first-degree murder counts. At the penalty phase, English
again conceded McCoy’s guilt, but urged mercy in view of McCoy’s
mental and emotional issues. The jury returned three death verdicts.
Represented by new counsel, McCoy unsuccessfully sought a new
trial. The Louisiana Supreme Court affirmed the trial court’s
ruling that English had authority to concede guilt, despite McCoy’s
opposition.
Held: The Sixth Amendment guarantees a defendant the right to
choose the objective of his defense and to insist that his counsel re­
frain from admitting guilt, even when counsel’s experienced-based
view is that confessing guilt offers the defendant the best chance to
avoid the death penalty. Pp. 6-13.
(a) The Sixth Amendment guarantees to each criminal defendant
“the Assistance of Counsel for his defence.” The defendant does not

APPENDIX “A”

Case 1:04^0^^

°F%$%PagelD
#: 10876

2

McCOY v. LOUISIANA
Syllabus
surrender control entirely to counsel, for the Sixth Amendment, in
“granting] to the accused personally the right to make his defense,”
“speaks of the ‘assistance’ of counsel, and an assistant, however ex­
pert, is still an assistant.” Faretta v. California, 422 U. S. 806, 819820. The lawyer's province is trial management, but some decisions
are reserved for the client—including whether to plead guilty, waive
the right to a jury trial, testify in one’s own behalf, and forgo an appeaL Autonomy to decide that the objective of the defense is to assert
innocence belongs in this reserved-fbr-the-client category. Refusing
to plead guilty in the face of overwhelming evidence against her, re­
jecting the assistance of counsel, and insisting on maintaining her
innocence at the guilt phase of a capital trial are not strategic choic­
es; they are decisions about what the defendant’s objectives in fact
are. See Weaver v. Massachusetts, 682 U. S.
. Counsel may
reasonably assess a concession of guilt as best suited to avoiding the
death penalty, as English did here. But the client may not share that
objective. He may wish to avoid, above all else, the opprobrium at­
tending admission that he killed family members, or he may hold life
in prison not worth living and prefer to risk death for any hope, how­
ever small, of exoneration. See Tr. of Oral Arg. 21-22. Thus, when a
client makes it plain that the objective of “his defence” is to maintain
innocence of the charged criminal acts and pursue an acquittal, his
lawyer must abide by that objective and may not override it by conceding guilt. Pp. 5-8.
(b) Florida v. Nixon, 643 U. S. 176, is not to the contrary. Nixon’s
attorney did not negate Nixon’s autonomy by overriding Nixon’s de­
sired defense objective, for Nixon “was generally unresponsive” dur­
ing discussions of trial strategy and “never verbally approved or pro­
tested” counsel's proposed approach. Id., at 181. He complained
about counsel’s admission of his guilt only after trial. Id., at 186.
McCoy, in contrast, opposed English’s assertion of his guilt at every
opportunity, before and during trial, both in conference with his law­
yer and in open court. Citing Nix v. Whiteside, 475 U. S. 157, the
Louisiana Supreme Court concluded that English’s refusal to main­
tain McCoy’s innocence was necessitated by a Louisiana Rule of Pro­
fessional Conduct that prohibits counsel from suborning perjury. But
in Nix, the defendant told his lawyer that he intended to commit per­
jury. Here, there was no avowed perjury. English harbored no doubt
that McCoy believed what he was saying; English simply disbelieved
that account in view of the prosecution’s evidence. Louisiana’s ethi­
cal rules might have stopped English from presenting McCoy’s alibi
evidence if English knew perjury was involved, but Louisiana has
identified no ethical rule requiring English to admit McCoy’s guilt
over McCoy’s objection. Pp. 8-11.

Case 1:0^J0WW ^@4/§g^r^git141^^04(Si|^|<^^/r
#: 10877

Cite as: 584 U. S.___ _ (2018)

PagelD

3

Syllabus
(c) The Court’s ineffective-assistance-of-counsel jurisprudence, see
Strickland v. Washington, 466 U. S. 668, does not apply here, where
the client’s autonomy, not counsel’s competence, is in issue. To gain
redress for attorney error, a defendant ordinarily must show preju­
dice. See id., at 692. But here, the violation of McCoy’s protected au. tonomy right was complete when the court allowed counsel to usurp
control of an issue within McCoy’s sole prerogative. Violation of a de­
fendant’s Sixth Amendment-secured autonomy has been ranked
“structural” error; when present, such an error is not subject to harm­
less-error review. See, e.g., McKaskle v. Wiggins, 465 U. S. 168, 177,
n. 8; United States v. Gonzalez-Lopez, 548 U. S. 140; Waller v. Geor­
gia, 467 U. S. 39. An error is structural if it is not designed to protect
defendants from erroneous conviction, but instead protects some oth­
er interest, such as “the fundamental legal principle that a defendant
must be allowed to make his own choices about the proper way to
protect his own liberty.” Weauer, 582 U. S.f at _ (citing Faretta, 422
U. S., at 834). Counsel's admission of a client’s guilt over the client’s
express objection is error structural in kind, for it blocks the defend­
ant’s right to make a fundamental choice about his own defense. See
Weaver, 582 U. S., at__ . McCoy must therefore be accorded a new
trial without any need first to show prejudice. Pp. 11—12.
2014—1449 (La. 10/19/16), 218 So. 3d 535, reversed and remanded.
GlNSBURG, J., delivered the opinion of the Court, in which ROBERTS,
C. J., and Kennedy, Breyer, Sotomayor, and Kagan, JJ., joined.
Auto, J., filed a dissenting opinion, in which Thomas and Gorsuch,
JJ., joined.

Case l:0£e^^t3$S$§

PagelD
#:10878

Cite as: 684 U.S.___ (2018)

1

Opinion of the Court
NOTICE: This opinion is subject to formal revision before publication in the
preliminary print of the United States Reports. Readers are requested to
notify the Reporter of Decisions, Supreme court of the United States, Wash'
ington, D. C. 20543, of any typographical or other formal errors, in order
that corrections may be made before the preliminary print goes to press.

SUPREME COURT OF THE UNITED STATES
No. 16-8265

ROBERT LEROY MCCOY, PETITIONER v. LOUISIANA
ON WRIT OF CERTIORARI TO THE SUPREME COURT OF
LOUISIANA
[May 14,2018]

JUSTICE GlNSBURG delivered the opinion of the Court.
In Florida v. Nixon, 543 U. S. 175 (2004), this Court
considered whether the Constitution bars defense counsel
from conceding a capital defendant’s guilt at trial “when
[the] defendant, informed by counsel, neither consents nor
objects,” id., at 178. In that case, defense counsel had
several times explained to the defendant a proposed guiltphase concession strategy, but the defendant was unre­
sponsive. Id., at 186. We held that when counsel confers
with the defendant and the defendant remains silent,
neither approving nor protesting counsel’s proposed con­
cession strategy, id., at 181, “[no] blanket rule demand[s]
the defendant’s explicit consent" to implementation of that
strategy, id., at 192.
In the case now before us, in contrast to Nixon, the
defendant vociferously insisted that he did not engage in
the charged acts and adamantly objected to any admission
of guilt. App. 286-287, 605-506. Yet the trial court per­
mitted counsel, at the guilt phase of a capital trial, to tell
the jury the defendant “committed three murders....
[H]e’s guilty.” Id., at 509, 510. We hold that a defendant
has the right to insist that counsel refrain from admitting

Case l:0£®Wtim®>3§

2

#: 10879

MCCOY v. LOUISIANA
Opinion of the Court

guilt, even when counsel’s experienced-based view is that
confessing guilt offers the defendant the best chance to
avoid the death penalty. Guaranteeing a defendant the
right “to have the Assistance of Counsel for his defence,”
the Sixth Amendment so demands. With individual lib­
erty—and, in capital cases, life—at stake, it is the defend­
ant’s prerogative, not counsel’s, to decide on the objective
of his defense: to admit guilt in the hope of gaining mercy
at the sentencing stage, or to maintain his innocence,
leaving it to the State to prove his guilt beyond a reason­
able doubt.
I
On May 5, 2008, Christine and Willie Young and Grego­
ry Colston were shot and killed in the Youngs’ home in
Bossier City, Louisiana. The three victims were the mother,
stepfather, and son of Robert McCoy’s estranged wife,
Yolanda. Several days later, police arrested McCoy in
Idaho. Extradited to Louisiana, McCoy was appointed
counsel from the public defender’s office. A Bossier Parish
grand jury indicted McCoy on three counts of first-degree
murder, and the prosecutor gave notice of intent to seek
the death penalty. McCoy pleaded not guilty. Throughout
the proceedings, he insistently maintained he was out of
State at the time of the killings and that corrupt police
killed the victims when a drug deal went wrong. App.
284—286. At defense counsel’s request, a court-appointed
sanity commission examined McCoy and found him com­
petent to stand trial.
In December 2009 and January 2010, McCoy told the
court his relationship with assigned counsel had broken
down irretrievably. He sought and gained leave to repre­
sent himself until his parents engaged new counsel for
him. In March 2010, Larry English, engaged by McCoy’s
parents, enrolled as McCoy’s counsel. English eventually
concluded that the evidence against McCoy was over-

PagelD

Case

°f^S^7c^)fL^1
#: 10880

Cite aa: 684 U. S.___ (2018)

3

Opinion of the Court

whelming and that, absent a concession at the guilt stage
that McCoy was the killer, a death sentence would be
impossible to avoid at the penalty phase.1 McCoy, English
reported, was “furious” when told, two weeks before trial
was scheduled to begin, that English would concede
McCoy’s commission of the triple murders. Id., at 286.2
McCoy told English “not to make that concession,” and
English knew of McCoy’s “complet[e] opposition] to [Eng­
lish] telling the jury that [McCoy] was guilty of killing the
three victims”; instead of any concession, McCoy pressed
English to pursue acquittal. Id., at 286-287.
At a July 26, 2011 hearing, McCoy sought to terminate
English’s representation, id., at 449, and English asked to
be relieved if McCoy secured other counsel, id., at 458.
With trial set to start two days later, the court refused to
relieve English and directed that he remain as counsel of
record. Id., at 461. “[Y]ou are the attorney,” the court told
English when he expressed disagreement with McCoy’s
wish to put on a defense case, and “you have to make the
trial decision of what you’re going to proceed with.” Id.,
at 469.
'Part of English’s strategy was to concede that McCoy committed the
murders and to argue that he should be convicted only of second-degree
murder, because his “mental incapacity prevented him from farming
the requisite specific intent to commit first degree murder.” 2014-1449
(La. 10/19/16), 218 So. 3d 635, 670. But the second-degree strategy
would have encountered a shoal, for Louisiana does not permit intro­
duction of evidence of a defendant’s diminished capacity absent the
entry of a plea of not guilty by reason of insanity. Ibid., and n. 35.
2 The dissent states that English.told McCoy his proposed trial strat­
egy eight months before triaL Poet, at 3. English did encourage
McCoy, “[a] couple of months before the trial," to plead guilty rather
than proceed to trial App. 66-67. But English declared under oath
that “the first time [he] told [McCoy] that [he] intended to concede to
the jury that [McCoy] was the killer'’ was July 12, 2011, two weeks
before trial commenced. Id., at 286. Encouraging a guilty plea pretrial,
of course, is not equivalent to imparting to a defendant counsel’s
strategic determination to concede guilt should trial occur.

pagelD

Case 1:04^S0WW

°PagelD
#: 10881

4

McCOY v. LOUISIANA
Opinion of the Court

At the beginning of his opening statement at the guilt
phase of the trial, English told the jury there was “no way
reasonably possible” that they could hear the prosecution’s
evidence and reach “any other conclusion than Robert
McCoy was the cause of these individuals’ death.” Id., at
504. McCoy protested; out of earshot of the jury, McCoy
told the court that English was “selling [him] out” by
maintaining that McCoy “murdered [his] family.” Id., at
505-506. The trial court reiterated that English was
“representing” McCoy and told McCoy that the court
would not permit "any other outbursts.” Id., at 506.
Continuing his opening statement, English told the jury
the evidence is “unambiguous,” “my client committed
three murders.” Id., at 509. McCoy testified in his own
defense, maintaining his innocence and pressing an alibi
difficult to fathom. In his closing argument, English
reiterated that McCoy was the killer. On that issue,
English told the jury that he “took [the] burden off of [the
prosecutor].” Id., at 647. The jury then returned a unan­
imous verdict of guilty of first-degree murder on all three
counts. At the penalty phase, English again conceded
“Robert McCoy committed these crimes,” id., at 751, but
urged mercy in view of McCoy*s “serious mental and emo­
tional issues,” id., at 755. The jury returned three death
verdicts.
Represented by new counsel, McCoy unsuccessfully
moved for a new trial, arguing that the trial court violated
his constitutional rights by allowing English to concede
McCoy “committed three murders,” id., at 509, over
McCoy’s objection. The Louisiana Supreme Court af­
firmed the trial court’s ruling that defense counsel had
authority so to concede guilt, despite the defendant’s
opposition to any admission of guilt. See 2014-1449 (La.
10/19/16), 218 So. 3d 535. The concession was permissible,
the court concluded, because counsel reasonably believed
that admitting guilt afforded McCoy the best chance to

Case IO'PwWW

PagelD
#: 10882

Cite.as: 584 U.S.___ (2018)

5

Opinion of the Court

avoid a death sentence.
We granted certiorari in view of a division of opinion
among state courts of last resort on the question whether
it is unconstitutional to allow defense counsel to concede
guilt over the defendant’s intransigent and unambiguous
objection. 582 U. S.___(2017). Compare with the instant
case, e.g.t Cooke v. State, 977 A. 2d 803, 842-846 (Del.
2009) (counsel’s pursuit of a “guilty but mentally ill” ver­
dict over defendant’s “vociferous and repeated protesta­
tions” of innocence violated defendant’s “constitutional
right to make the fundamental decisions regarding his
case”); State v. Carter, 270 Kan. 426, 440, 14 P. 3d 1138,
1148 (2000) (counsel's admission of client’s involvement in
murder when client adamantly maintained his innocence
contravened Sixth Amendment right to counsel and due
process right to a fair trial).

n
A
The Sixth Amendment guarantees to each criminal
defendant “the Assistance of Counsel for his defence.” At
common law, self-representation was the norm. See Faretta v. California, 422 U. S. 806, 823 (1975) (citing 1 F.
Pollock & F. Maitland, The History of English Law 211 (2d
ed. 1909)). As the laws of England and the American
Colonies developed, providing for a right to counsel in
criminal cases, self-representation remained common and
the right to proceed without counsel was recognized.
Faretta, 422 U. S., at 824-828. Even now, when most
defendants choose to be represented by counsel, see, e.g.,
Goldschmidt & Stemen, Patterns and Trends in Federal
Pro Se Defense, 1996-2011: An Exploratory Study, 8 Fed.
Cts. L. Rev. 81, 91 (2015) (0.2% of federal felony defend­
ants proceeded pro se), an accused may insist upon repre­
senting herself—however counterproductive that course
may be, see Faretta, 422 U. S., at 834. As this Court

Case 1:O^OW«

0f*gp3&bPfL&1
#: 10883

6

McCOY v. LOUISIANA
Opinion of the Court

explained, “[t]he right to defend is personal,” and a de­
fendant’s choice in exercising that right “must be honored
out of ‘that respect for the individual which is the lifeblood
of the law.’” Ibid, (quoting Illinois v. Allen, 397 U. S. 337,
350-351 (1970) (Brennan, J., concurring)); see McKaskle v.
Wiggins, 465 U. S. 168, 176-177 (1984) (“The right to
appear pro se exists to affirm the dignity and autonomy of
the accused.”).
The choice is not all or nothing: To gain assistance, a
defendant need not surrender control entirely to counsel.
For the Sixth Amendment, in “grant[ing] to the accused
personally the right to make his defense,” “speaks of the
‘assistance’ of counsel, and an assistant, however expert, is
still an assistant.” Faretta, 422 U. S., at 819-820; see
Gannett Co. v. DePasquale, 443 U. S. 368, 382, n. 10
(1979) (the Sixth Amendment “contemplatjes] a norm in
which the accused, and not a lawyer, is master of his own
defense”). Trial management is the lawyer’s province:
Counsel provides his or her assistance by making deci­
sions such as “what arguments to pursue, what eviden­
tiary objections to raise, and what agreements to conclude
regarding the admission of evidence.” Gonzalez v. United
States, 553 U. S. 242, 248 (2008) (internal quotation
marks and citations omitted). Some decisions, however,
are reserved for the client—notably, whether to plead
guilty, waive the right to a jury trial, testify in one’s own
behalf, and forgo an appeal. See Jones v. Barnes, 463
U. S. 745, 751 (1983).
Autonomy to decide that the objective of the defense is
to assert innocence belongs in this latter category. Just as
a defendant may steadfastly refuse to plead guilty in the
face of overwhelming evidence against her, or reject the
assistance of legal counsel despite the defendant’s own
inexperience and lack of professional qualifications, so
may she insist on maintaining her innocence at the guilt
phase of a capital trial. These are not strategic choices

PagelD

Case 1:0AW'0^W

PagelD
#:10884

Cite aa: 584 U.S.___ (2018)

7

Opinion of the Coin*

about how best to achieve a client’s objectives; they are
choices about what the client’s objectives in fact are. See
Weaver v. Massachusetts, 582 U. S. ___,___(2017) (slip
op., at 6) (2017) (self-representation will often increase the
likelihood of an unfavorable outcome but “is based on the
fundamental legal principle that a defendant must be
allowed to make his own choices about the proper way to
protect his own liberty”); Martinez v. Court of Appeal of
Cal, Fourth Appellate Dist., 528 U. S. 152, 165 (2000)
(Scalia, J., concurring in judgment) (“Our system of laws
generally presumes that the criminal defendant, after
being fully informed, knows his own best interests and
does not need them dictated by the State.”).
Counsel may reasonably assess a concession of guilt as
best suited to avoiding the death penalty, as English did
in this case. But the client may not share that objective.
He may wish to avoid, above all else, the opprobrium that
comes with admitting he killed family members. Or he
may hold life in prison not worth living and prefer to risk
death for any hope, however small, of exoneration. See Tr.
of Oral Arg. 21—22 (it is for the defendant to make the
value judgment whether “to take a minuscule chance of
not being convicted and spending a life in.. . prison”);
Hashimoto, Resurrecting Autonomy: The Criminal De­
fendant’s Right to Control the Case, 90 B, U. L. Rev. 1147,
1178 (2010) (for some defendants, “the possibility of an
acquittal, even if remote, may be more valuable than the
difference between a life and a death sentence”); cf. Jae
Lee v. United States, 582 U. S.___,___(2017) (slip op., at
12) (recognizing that a defendant might reject a plea and
prefer “taking a chance at trial” despite “[ajlmost certai[n]” conviction (emphasis deleted)), When a client
expressly asserts that the objective of uhis defence” is to
maintain innocence of the charged criminal acts, his law­
yer must abide by that objective and may not override it
by conceding guilt. U. S. Const., Arndt. 6 (emphasis add-

Case

■'^(04/g9J9n^t14d^°^H^fel^/l? ° f*3§0ft§3tft$S1 PagelD
#: 10885

8

MCCOY v. LOUISIANA
Opinion of the Court

ed); see ABA Model Rule of Professional Conduct 1.2(a)
(2016) (a “lawyer shall abide by a client’s decisions con­
cerning the objectives of the representation”).
Preserving for the defendant the ability to decide
whether to maintain his innocence should not displace
counsel’s, or the court’s, respective trial management
roles. See Gonzalez, 663 U. S., at 249 (“[njumerous choices
affecting conduct of the trial” do not require client consent,
including “the objections to make, the witnesses to call,
and the arguments to advance”); cf. post, at 8-9. Counsel,
in any case, must still develop a trial strategy and discuss
it with her client, see Nixon, 543 U. 8., at 178, explaining
why, in her view, conceding guilt would be the best option.
In this case, the court had determined that McCoy was
competent to stand trial, i.e., that McCoy had “sufficient
present ability to consult with his lawyer with a reason­
able degree of rational understanding.” Godinez v. Moran,
609 U. S. 389, 396 (1993) (quoting Dusky v. United States,
362 U. S. 402 (1960) (per curiam)).3 If, after consultations
with English concerning the management of the defense,
McCoy disagreed with English’s proposal to concede
McCoy committed three murders, it was not open to Eng­
lish to override McCoy’s objection. English could not
interfere with McCoy’s telling the jury “I was not the
murderer,” although counsel could, if consistent with
providing effective assistance, focus his own collaboration
on urging that McCoy’s mental state weighed against
conviction. See Tr. of Oral Arg. 21-23.
B
Florida v. Nixon, see supra, at 1—2, is not to the con­
trary. Nixon’s attorney did not negate Nixon’s autonomy by
overriding Nixon’s desired defense objective, for Nixon
3Several times, English did express his view that McCoy was not, in
fact, competent to stand trial. See App. 388, 436.

Case

°PagelD
#: 10886

Cite aa: 584 U.S.___ (2018)

9

Opinion of the Court

never asserted any such objective. Nixon “was generally
unresponsive” during discussions of trial strategy, and
“never verbally approved or protested” counsel’s proposed
approach. 543 U. S., at 181. Nixon complained about the
admission of his guilt only after trial. Id.., at 185. McCoy,
in contrast, opposed English’s assertion of his guilt at
every opportunity, before and during trial, both in confer­
ence with his lawyer and in open court. See App, 286-287,
456, 505—506.' See also Cooke, 977 A. 2d, at 847 (distin­
guishing Nixon because, “[i]n stark contrast to the defend­
ant’s silence in that case, Cooke repeatedly objected to his
counsel’s objective of obtaining a verdict of guilty but
mentally ill, and asserted his factual innocence consistent
with his plea of not guilty"). If a client declines to partici­
pate in his defense, then an attorney may permissibly
guide the defense pursuant to the strategy she believes to
be in the defendant’s best interest. Presented with ex­
press statements of the client’s will to maintain innocence,
however, counsel may not steer the ship the other way.
See Gonzalez, 553 U. S., at 254 (Scalia, J., concurring in
judgment) (“[Ajction taken by counsel over his client’s
objection ... ha[s] the effect of revoking [counsel’s] agency
with respect to the action in question.”).
The Louisiana Supreme Court concluded that English’s
refusal to maintain McCoy’s innocence was necessitated
by Louisiana Rule of Professional Conduct 1.2(d) (2017),
which provides that “[a] lawyer shall not counsel a client
to engage, or assist a client, in conduct that the lawyer
knows is criminal or fraudulent.” 218 So. 3d, at 564.
Presenting McCoy’s alibi defense, the court said, would
put English in an “ethical conundrum,” implicating Eng­
lish in perjury. Id., at 665 (citing Nix v. Whiteside, 475
U. S. 157, 173-176 (1986)). But McCoy’s case does not
resemble Nix, where the defendant told his lawyer that he
intended to commit perjury. There was no such avowed
perjury here. Cf. ABA Model Rule of Professional Conduct

Case 1:O^0O^W

^PagelD
#: 10887

10

MCCOY v. LOUISIANA
Opinion of the Court

3.3, Comment 8 (“The prohibition against offering false
evidence only applies if the lawyer knows that,the evi­
dence is false.”). English harbored no doubt that McCoy
believed what he was saying, see App. 285-286; English
simply disbelieved McCoy’s account in view of the prosecu­
tion’s evidence. English’s express motivation for conceding
guilt was not to avoid suborning perjury, but to try to
build credibility with the jury, and thus obtain a sentence
lesser than death. Id, at 287. Louisiana’s ethical rules
might have stopped English from presenting McCoy’s alibi
evidence if English knew perjury was involved. But Loui­
siana has identified no ethical rule requiring English to
admit McCoy’s guilt over McCoy’s objection. See 3 W.
LaFave, J. Israel, N. King, & O. Kerr, Criminal Procedure
§11.6(c), p. 935 (4th ed. 2015) (“A lawyer is not placed in a
professionally embarrassing position when he is reluc­
tantly required ... to go to trial in a weak case, since that
decision is clearly attributed to his client.”).
The dissent describes the conflict between English and
McCoy as “rare” and “unlikely to recur.” Post, at 2, 5-7,
and n. 2. Yet the Louisiana Supreme Court parted ways
with three other State Supreme Courts that have ad­
dressed this conflict in the past twenty years. People v.
Bergerud, 223 P. 3d 686, 691 (Colo. 2010) (“Although
defense counsel is free to develop defense theories based
on reasonable assessments of the evidence, as guided by
her professional judgment, she cannot usurp those funda­
mental choices given directly to criminal defendants by
the United States and the Colorado Constitutions.”);
Cooke, 977 A. 2d 803 (Del. 2009); Carter, 270 Kan. 426, 14
P. 3d 1138 (2000). In each of the three cases, as here, the
defendant repeatedly and adamantly insisted on main­
taining his factual innocence despite counsel’s preferred
course: concession of the defendant’s commission of crimi­
nal acts and pursuit of diminished capacity, mental ill­
ness, or lack of premeditation defenses. See Bergerud, 223

Case 1:0^)0WW

PagelD
#: 10888

Cite as: 584 U.S.___ (2018)

ll

Opinion of the Court

P. 3d, at 690-691; Cooke, 977 A. 2d, at 814; Carter, 270
Kan., at 429, 14 P. 3d, at 1141. These were not strategic
disputes about whether to concede an element of a charged
offense, cf. post, at 8; they were intractable disagreements
about the fundamental objective of the defendant’s repre­
sentation. For McCoy, that objective was to maintain “I
did not kill the members of my family.” Tr. of Oral Arg.
26. In this stark scenario, we agree with the majority of
state courts of last resort that counsel may not admit her
client’s guilt of a charged crime over the client’s intransi­
gent objection to that admission.

m
Because a client’s autonomy, not counsel’s competence,
is in issue, we do not apply our ineffective-assistance-ofcounsel jurisprudence, Strickland v. Washington, 466
U. S. 668 (1984), or United States v. Cronic, 466 U. S. 648
(1984), to McCoy’s claim. See Brief for Petitioner 43-48;
Brief for Respondent 46-52. To gain redress for attorney
error, a defendant ordinarily must show prejudice. See
Strickland, 466 U. S., at 692. Here, however, the violation
of McCoy’s protected autonomy right was complete when
the court allowed counsel to usurp control of an issue
within McCoy’s sole prerogative.
Violation of a defendant’s Sixth Amendment-secured
autonomy ranks as error of the kind our decisions have
called “structural”; when present, such an error is not
subject to harmless-error review. See, e.g., McKaskle, 465
U. S., at 177, n. 8 (harmless-error analysis is inapplicable
to deprivations of the self-representation right, because
“[t]he right is either respected or denied; its deprivation
cannot be harmless”); United States v. Gonzalez-Lopez,
548 U. S. 140, 150 (2006) (choice of counsel is structural);
Waller v. Georgia, 467 U. S. 39, 49—50 (1984) (public trial
is structural). Structural error “affect[s] the framework
within which the trial proceeds,” as distinguished from a

Case

°f^ipe5^flM1
#: 10889

12

McCOY o. LOUISIANA
Opinion of the Court

lapse or flaw that is “simply an error in the trial process
itself/’ Arizona v. Fulminante, 499 U. S. 279, 310 (1991).
An error may be ranked structural, we have explained, “if
the right at issue is not designed to protect the defendant
from erroneous conviction but instead protects some other
interest,’’ such as “the fundamental legal principle that a
defendant must be allowed to make his own choices about
the proper way to protect his own liberty.” Weaver, 582
U. S., at__ (slip op., at 6) (citing Faretta, 422 U. S., at
834). An error might also count as structural when its
effects are too hard to measure, as is true of the right to
counsel of choice, or where the error will inevitably signal
fundamental unfairness, as we have said of a judge’s
failure to tell the jury that it may not convict unless it
finds the defendant’s guilt beyond a reasonable doubt. 582
U. S., at
—
(slip op., at 6-7) (citing Gonzalez-Lopez,
548 U. S., at 149, n. 4, and Sullivan v. Louisiana, 508
U. S. 275, 279 (1993)).
Under at least the first two rationales, counsel’s admis­
sion of a client’s guilt over the client’s express objection is
error structural in kind. See Cooke, 977 A. 2d, at 849
(“Counsel’s override negated Cooke’s decisions regarding
his constitutional rights, and created a structural defect in
the proceedings as a whole.”). Such an admission blocks
the defendant’s right to make the fundamental choices
about his own defense. And the effects of the admission
would be immeasurable, because a jury would almost
certainly be swayed by a lawyer’s concession of his client’s
guilt. McCoy must therefore be accorded a new trial with­
out any need first to show prejudice.4
4 The dissent suggests that a remand would be in order, so that the
Louisiana Supreme Court, in the first instance, could consider the
structural-error question. See post, at 10-11. u[W]e did not grant
certiorari to review” that question. Post, at 10. But McCoy raised his
structural-error argument in his opening brief, see Brief for Petitioner
38-43, and Louisiana explicitly chose not to grapple with it, see Brief

PagelD

Case 1:0^'0WW

°P%p25^7c#l!bt1
#: 10890

Cite as: 684 U.S.___ (2018)

13

Opinion of the Court

Larry English was placed in a difficult position; he had
an unruly client and faced a strong government case. He
reasonably thought the objective of his representation
should be avoidance of the death penalty. But McCoy
insistently maintained: “I did not murder my family.”
App. 506. Once he communicated that to court and coun­
sel, strenuously objecting to English’s proposed strategy, a
concession of guilt should have been off the table. The
trial court’s allowance of English’s admission of McCoy’s
guilt despite McCoy’s insistent objections was incompati­
ble with the Sixth Amendment. Because the error was
structural, a new trial is the required corrective.
For the reasons stated, the judgment of the Louisiana
Supreme Court is reversed, and the case is remanded for
further proceedings not inconsistent with this opinion.
It is so ordered.

for Respondent 46, n. 5. In any event, "we have the authority to make
our own assessment of the harmlessness of a constitutional error in the
first instance.” Yates v. Evait, 500 U. S. 391, 407 (1991) (citing Rose v.
Clark, 478 U. S. 670, 684 (1986)).

PagelD

Case 1:0^P»'0WW&

°f%p£5§%?4lM1
#: 10891

Cite as: 584 U. S.___ (2018)

1

AUTO, J., dissenting

SUPREME COURT OF THE UNITED STATES
No. 16-8255

ROBERT LEROY MCCOY, PETITIONER v. LOUISIANA
ON WRIT OF CERTIORARI TO THE SUPREME COURT OF
LOUISIANA
[May 14, 2018]

Justice Auto, with whom Justice Thomas and
Justice Gorsuch join, dissenting.
The Constitution gives us the authority to decide real
cases and controversies; we do not have the right to sim­
plify or otherwise change the facts of a case in order to
make our work easier or to achieve a desired result. But
that is exactly what the Court does in this case. The
Court overturns petitioner’s convictions for three counts of
first-degree murder by attributing to his trial attorney,
Larry English, something that English never did. The
Court holds that English violated petitioner’s constitu­
tional rights by “admitting] h[is] client’s guilt of a charged
crime over the client’s intransigent objection.” Ante, at
ll.1 But English did not admit that petitioner was guilty
lWhen the Court expressly states its holding, it refers to a concession
of guilt. See ante, at 1—2 (“We hold that a defendant has the right to
insist that counsel refrain from admitting guilt, even when counsel’s
experienced-based view is that confessing guilt offers the defendant the
best chance to avoid the death penalty”); ante, at 11 (“counsel may not
admit her client’s guilt of a charged crime over the client’s intransigent
objection to that admission”). The opinion also contains many other
references to the confession or admission of guilt. See, e.g„ ante, at 2
(“confessing guilt”; “admit guilt"); ante, at 4 (“admitting guilt”); ante, at
5 (“concede guiltT); ante, at 6 (“maintaining her innocence at the guilt
phase”); ante, at 7 (“concession of guilt"); ante, at 8 (“conceding guilt?);
ante, at 9 (“assertion of his guilt”); ante, at 10 (“conceding guilt”; “admit
McCoy’s guilt”); ante, at 13 (“concession of guilt”; “admission of McCoy’s

PagelD

Case 1:0^0WW

'5f%^5§%PtM1
#: 10892

2

McCOY v. LOUISIANA
Auto, J., dissenting

o£ first-degree murder. Instead, faced with overwhelming
evidence that petitioner shot and killed the three victims,
English admitted that petitioner committed one element of
that offense, i.e., that he killed the victims. But English
strenuously argued that petitioner was not guilty of firstdegree murder because he lacked the intent (the mens rea)
required for the offense. App. 508-612. So the Court’s
newly discovered fundamental right simply does not apply
to the real facts of this case.
I
The real case is far more complex. Indeed, the real
situation English faced at the beginning of petitioner’s
trial was the result of a freakish confluence of factors that
is unlikely to recur.
Retained by petitioner’s family, English found himself in
a predicament as the trial date approached. The evidence
against his client was truly “overwhelming,” as the Loui­
siana Supreme Court aptly noted.
2014-1449 (La.
10/19/16), 218 So. 3d 635, 565 (2016). Among other things,
the evidence showed the following. Before the killings
took place, petitioner had abused and threatened to kill
his wife, and she was therefore under police protection.
On the night of the killings, petitioner’s mother-in-law
made a 911 call and was heard screaming petitioner’s first
name. She yelled: ‘“She ain’t here, Robert... I don’t know
where she is. The detectives have her. Talk to the detec­
tives. She ain’t in there, Robert.’” Id., at 542. Moments
later, a gunshot wasi heard, and the 911 call was
guilt”).
At a few points, however, the Court refers to the admission of crimi­
nal “acts.” Ante, at 1, 7, 10. A rule that a defense attorney may not
admit the actus reus of an offense (or perhaps even any element of the
actus reus) would be very different from the rule that the Court ex­
pressly adapts. I discuss some of the implications of such a broad rule
in Part HE of this opinion.

PagelD

Case

■^©4/^iirrl£tat14^04ft£Mi!^/3?‘ °PagelD
#:10893

Cite as: 584 U. S.___ (2018)

' 3

AUTO, J., dissenting

disconnected.
Officers were dispatched to the scene, and on arrival,
they found three dead or dying victims—petitioner's motherin-law, her husband, and the teenage son of petitioner’s
wife. The officers saw a man who fit petitioner’s descrip­
tion fleeing in petitioner’s car. They chased the suspect,
but he abandoned the car along with critical evidence
linking him to the crime: the cordless phone petitioner’s
mother-in-law had used to call 911 and a receipt for the
type of ammunition used to kill the victims. Petitioner
was eventually arrested while hitchhiking in Idaho, and a
loaded gun found in his possession was identified as the
one used to shoot the victims. In addition to all this, a
witness testified that petitioner had asked to borrow
money to purchase bullets shortly before the shootingB,
and surveillance footage showed petitioner purchasing the
ammunition on the day of the hillings. And two of peti­
tioner’s friends testified that he confessed to killing at
least one person.
Despite all this evidence, petitioner, who had been found
competent to stand trial and had refused to plead guilty by
reason of insanity, insisted that he did not kill the victims.
He claimed that the victims were killed by the local police
and that he had been framed by a farflung conspiracy of
state and federal officials, reaching from Louisiana to
Idaho. Petitioner believed that even his attorney and the
tried judge had joined the plot. App. 509.
Unwilling to go along with this incredible and uncorrob­
orated defense, English told petitioner “some eight
months” before trial that the only viable strategy was to
admit the killings and to concentrate on attempting to
avoid a sentence of death. 218 So. 3d, at 658. At that
point—awEire of English’s strong views—petitioner could
have discharged English and sought new counsel willing
to pursue his conspiracy defense; under the Sixth
Amendment, that was his right. See United States v.

Case

PagelD
#: 10894

4

McCOY v. LOUISIANA
Auto, J., dissenting

Gonzalez-Lopez, 548 U. S. 140, 144 (2006). But petitioner
stated “several different times” that he was “confident
with Mr. English.” App. 411, 437.
The weekend before trial, however, petitioner changed
his mind. He asked the trial court to replace English, and
English asked for permission to withdraw. Petitioner
stated that he had secured substitute counsel, but he was
unable to provide the name of this new counsel, and no
new attorney ever appeared. The court refused these
requests and also denied petitioner’s last-minute request
to represent himself. (Petitioner does not challenge these
decisions here.) So petitioner and English were stuck with
each other, and petitioner availed himself of his right to
take the stand to tell his wild story. Under those circum­
stances, what was English supposed to do?
The Louisiana Supreme Court held that English could
not have put on petitioner’s desired defense without violat­
ing state ethics rules, see 218 So. 3d, at 564-565, but this
Court effectively overrules the state court on this issue of
state law, ante, at 9—10. However, even if it is assumed
that the Court is correct on this ethics issue, the result of
mounting petitioner’s conspiracy defense almost certainly
would have been disastrous. That approach stood no
chance of winning an acquittal and would have severely
damaged English’s credibility in the eyes of the jury, thus
undermining his ability to argue effectively against the
imposition of a death sentence at the penalty phase of the
trial. As English observed, taking that path would have
only “help[ed] the District Attorney send [petitioner] to the
death chamber.” App. 396. (In Florida v. Nixon, 543 U. S.
175, 191—192 (2004), this Court made essentially the same
point.) So, again, what was English supposed to do?
When pressed at oral argument before this Court, peti­
tioner’s current counsel eventually provided an answer:
English was not required to take any affirmative steps to
support petitioner’s bizarre defense, but instead of conced-

Case

0f*Sp36&33?>tM1
#: 10895

Cite as: 584 U.S.___ (2018)

5

Auto, J., dissenting

ing that petitioner shot the victims, English should have
ignored that element entirely. Tr. of Oral Arg. 21—23. So
the fundamental right supposedly violated in this case
comes down to the difference between the two statements
set out below.
Constitutional: "First-degree murder requires proof
both that the accused killed the victim and that he
acted with the intent to kill. I submit to you that my
client did not have the intent required for conviction
for that offense.”
Unconstitutional: "First-degree murder requires proof
both that the accused killed the victim and that he
acted with the intent to kill. I admit that my client
shot and killed the victims, but I submit to you that
he did not have the intent required for conviction for
that offense.”
The practical difference between these two statements is
negligible. If English had conspicuously refrained from
endorsing petitioner’s story and had based his defense
solely on petitioner’s dubious mental condition, the jury
would surely have gotten the message that English was
essentially conceding that petitioner killed the victims.
But according to petitioner’s current attorney, the differ­
ence is fundamental. The first formulation, he admits, is
perfectly fine. The latter, on the other hand, is a violation
so egregious that the defendant’s conviction must be re­
versed even if there is no chance that the misstep caused
any harm. It is no wonder that the Court declines to
embrace this argument and instead turns to an issue that
the case at hand does not actually present.

n
The constitutional right that the Court has now discov­
ered—a criminal defendant’s right to insist that his attor­
ney contest his guilt with respect to all charged offenses—

PagelD

Case

PagelD
#:10896

6

MCCOY v. LOUISIANA
AUTO, J., dissenting

is like a rare plant that blooms every decade or so. Having
made its first appearance today, the right is unlikely to
figure in another case for many years to come. Why is
this so?
First, it is hard to see how the right could come into play
in any case other than a capital case in which the jury
must decide both guilt and punishment. In all other cases,
guilt is almost always the only issue for the jury, and
therefore admitting guilt of all charged offenses will
achieve nothing. It is hard to imagine a situation in which
a competent attorney might take that approach. So the
right that the Court has discovered is effectively confined
to capital cases.
Second, few rational defendants facing a possible death
sentence are likely to insist on contesting guilt where
there is no real chance of acquittal and where admitting
guilt may improve the chances of avoiding execution.
Indeed, under such circumstances, the odds are that a
rational defendant will plead guilty in exchange for a life
sentence. By the same token, an attorney is unlikely to
insist on admitting guilt over the defendant’s objection
unless the attorney believes that contesting guilt would be
futile. So the right is most likely to arise in cases involv­
ing irrational capital defendants.2
Third, where a capital defendant and his retained attor­
ney cannot agree on a basic trial strategy, the attorney
and client will generally part ways unless, as in this case,
the court is not apprised until the eve of trial. The client
will then either search for another attorney or decide to
represent himself. So the field of cases in which this right
2 The Court imagines cases in which a rational defendant prefers
even a minuscule chance of acquittal over either the social opprobrium
that would result from an admission of guilt or the sentence of impris­
onment that would be imposed upon conviction. Ante, at 7. Such cases
are likely to be rare, and in any event, as explained below, the defend­
ant will almost always be able to get his way if he acts in time.

Case 1:

■Q^@4/g@J9rTjgVit14d^404f3i|^fe^/# 0

Page (D

#: 10897

Cite as: 584 U.S.___ (2018)

7

Auto, J., dissenting

might arise is limited further still—to cases involving
irrational capital defendants who disagree with their
attorneys’ proposed strategy yet continue to retain them.
Fourth, if counsel is appointed, and unreasonably insists
on admitting guilt over the defendant’s objection, a capa­
ble trial judge will almost certainly grant a timely request
to appoint substitute counsel. And if such a request is
denied, the ruling may be vulnerable on appeal.
Finally, even if all the above conditions are met, the
right that the Court now discovers will not come into play
unless the defendant expressly protests counsel’s strategy
of admitting guilt. Where the defendant is advised of the
strategy and says nothing, or is equivocal, the right is
deemed to have been waived. See Nixon, 543 U. S., at 192.
In short, the right that the Court now discovers is likely
to appear only rarely,3 and because the present case is so
unique, it is hard to see how it meets our stated criteria
for granting review. See this Court’s Rules 10(b)-(c).
Review would at least be understandable if the strategy
that English pursued had worked an injustice, but the
Court does not make that claim—and with good reason.
Endorsing petitioner’s bizarre defense would have been
extraordinarily unwise, and dancing the fine line recom­
mended by petitioner's current attorney would have done
3 The Court responds that three State Supreme Courts have “ad­
dressed this conflict in the past twenty years." Ante, at 10. Even if
true, that would hardly be much of a rebuttal. Moreover, two of the
three decisions were not based on the right that the Court discovers
and applies here, i.e., “the right to insist that counsel refrain from
admitting guilt.” Ante, at 1-2. In People v. Bergerud, 223 P. 3d 686
(Colo. 2010), the court found that defense counsel did not admit guilt,
and the court's decision (which did not award a new trial) was based on
other grounds. Id., at 692, 700, 707. In State v. Carter, 270 Kan. 426,
14 P. 3d 1138 (2000), defense counsel did not admit his client’s guilt on
all charges. Instead, he contested the charge of first-degree murder but
effectively admitted the elements of a lesser homicide offense. Id., at
431-433,14 P. 3d, at 1143.

Case 1:0£<§^0WW£

PagelD
#: 10898

s

McCOY v. LOUISIANA
Auto, J., dissenting

no good. It would liave had no effect on the outcome of the
trial, and it is hard to see how that approach would have
respected petitioner’s “autonomy,” ante, at 6, 7, 8, 11, any
more than the more straightforward approach that Eng­
lish took. If petitioner is retried, it will be interesting to
see what petitioner’s current counsel or any other attorney
to whom the case is handed off will do. It is a safe bet that
no attorney will put on petitioner’s conspiracy defense.
HI
While the question that the Court decides is unlikely to
make another appearance for quite some time, a related—
and difficult-—question may arise more frequently: When
guilt is the sole issue for the jury, is it ever permissible for
counsel to make the unilateral decision to concede an
element of the offense charged? If today’s decision were
understood to address that question, it would have im­
portant implications.
Under current precedent, there are some decisions on
which a criminal defendant has the final say. For exam­
ple, a defendant cannot be forced to enter a plea against
his wishes. See Brookhart v. Janis, 384 U. S. 1, 5-7
(1966). Similarly, no matter what counsel thinks best, a
defendant has the right to insist on a jury trial and to take
the stand and testify in his own defense. See Harris v.
New York, 401 U. S. 222, 225 (1971). And if, as in this
case, a defendant and retained counsel do not see eye to
eye, the client can always attempt to find another attorney
who will accede to his wishes. See Gonzalez-Lopez, 548
U. S., at 144. A defendant can also choose to dispense
with counsel entirely and represent himself. See Faretta
v. California, 422 U. S. 806, 819 (1975).
While these fundamental decisions must be made by a
criminal defendant, most of the decisions that arise in
criminal cases are the prerogative of counsel. (Our adver­
sarial system would break down if defense counsel were

Case l:04^)'0Wil

;$4/g@£g^t14^04|3^fei7&2//i
#: 10899

Cite aa: 684 U. S.___ (2018)

F%@96^%?>tLM1 PagelD

9

AUTO, J., dissenting

required to obtain the client’s approval for every im­
portant move made during the course of the case.) Among
the decisions that counsel is free to make unilaterally are
the following; choosing the basic line of defense, moving to
suppress evidence, delivering an opening statement and
deciding what to say in the opening, objecting to the ad­
mission of evidence, cross-examining witnesses, offering
evidence and calling defense witnesses, and deciding what
to say in summation. See, e.g.t New York v. Hill, 528 U. S.
110, 114—115 (2000). On which side of the line does con­
ceding some but not all elements of the charged offense
fall?
Some criminal offenses contain elements that the prose' cution can easily prove beyond any shadow of a doubt. A
prior felony conviction is a good example. See 18 U. S. C.
§922(g) (possession of a firearm by a convicted felon).
Suppose that the prosecution is willing to stipulate that
the defendant has a prior felony conviction but is pre­
pared, if necessary, to offer certified judgments of convic­
tion for multiple prior violent felonies. If the defendant
insists on contesting the convictions on frivolous grounds,
must counsel go along? Does the same rule apply to all
elements? If there are elements that may not be admitted
over the defendant’s objection, must counsel go further
and actually contest those elements? Or is it permissible
if counsel refrains from expressly conceding those ele­
ments but essentially admits them by walking the fine
line recommended at argument by petitioner’s current
attorney?
What about conceding that a defendant is guilty, not of
the offense charged, but of a lesser included offense? That
is what English did in this case. He admitted that peti­
tioner was guilty of the noncapital offense of seconddegree murder in an effort to prevent a death sentence.

Case

PagelD
#: 10900

10

McCOY v. LOUISIANA
Auto, J., dissenting

App. 651.4 Is admitting guilt of a lesser included offense
over the defendant’s objection always unconstitutional?
Where the evidence strongly supports conviction for firstdegree murder, is it unconstitutional for defense counsel to
make the decision to admit guilt of any lesser included
form of homicide—even manslaughter? What about sim­
ple assault?
These are not easy questions, and the fact that they
have not come up in this Court for more than two centu­
ries suggests that they will arise infrequently in the fu­
ture. I would leave those questions for another day and
limit our decision to the particular (and highly unusual)
situation in the actual case before us. And given the
situation in which English found himself when trial com­
menced, I would hold that he did not violate any funda­
mental right by expressly acknowledging that petitioner
killed the victims instead of engaging in the barren exer­
cise that petitioner’s current counsel now recommends.
IV
Having discovered a new right not at issue in the real
case before us, the Court compounds its error by summarily
concluding that a violation of this right “ranks as error of
the kind our decisions have called ‘structural.’” Ante,
at 11.
The Court concedes that the Louisiana Supreme Court
did not decide the structural-error question and that we
‘“did not grant certiorari to review’ that question.” Ante,
4 The Court asserts that, under Louisiana law, English’s “seconddegree strategy would have encountered a shoal” and necessarily failed.
Ante, at 3, n. 1. But the final arbiter of Louisiana law—the Louisiana
Supreme Court—disagreed. It held that “[t]he jury was left with
several choices” after English’s second-degree concession, “including
returning a responsive verdict of second degree murder’’ and “not
returning the death penalty.” 2014-1449 (La. 10/19/16), 218 So. 3d
535, 672 (2016).

-f*i|8$6^tLM1

Case
#: 10901

12

McCOY v. LOUISIANA
Alito, J., dissenting

basis of a newly discovered constitutional right that is not
implicated by what really occurred at petitioner’s trial. I
would base our decision on what really took place, and
under the highly unusual facts of this case, I would affirm
the judgment below.
I therefore respectfully dissent.

PagelD

